<html>
<title> - INSTITUTIONS OF DEMOCRATIC GOVERNANCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 INSTITUTIONS OF DEMOCRATIC GOVERNANCE

=======================================================================



                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
70-939                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
                 Institutions of Democratic Governance

                                Findings

        <bullet> The Communist Party exercises control over 
        political affairs, government, and society through 
        networks of Party committees or branches that exist at 
        all levels in government, legislative, and judicial 
        agencies, as well as in businesses, major social groups 
        (including unions), the military, and most residential 
        communities. During the 2011 reporting year, Communist 
        Party leaders reiterated Party dominance and 
        accelerated efforts to build or revitalize Party 
        organizations, especially focusing on Party branches in 
        commercial buildings, urban neighborhoods, academic 
        institutions, and law firms.
        <bullet> China's political institutions do not comply 
        with the standards defined in Article 25 of the 
        International Covenant on Civil and Political Rights, 
        which Chinese leaders have signed and declared an 
        intention to ratify. Nor do China's political 
        institutions comply with the standards outlined in the 
        Universal Declaration of Human Rights. While central-
        level Chinese leaders continued to issue measures meant 
        to improve the efficiency of bureaucratic governance 
        and to bolster trust in the Party, news reports did not 
        indicate any major forthcoming political reforms. 
        Premier Wen Jiabao emphasized the need for political 
        reforms; however, some of his remarks were censored in 
        the Chinese domestic news. Other top leaders appeared 
        to criticize ideological pluralism and to emphasize the 
        impossibility of implementing ``Western-style'' 
        democracy with its separation of powers and competing 
        political parties.
        <bullet> During this reporting year, Chinese 
        authorities expanded social controls under the banner 
        of strengthening ``comprehensive management of public 
        security'' and ``safeguarding social stability.'' 
        Officials engaged in a largely preemptive crackdown 
        affecting hundreds of people, apparently disregarding 
        their constitutional right to freedom of assembly and 
        preventing them from gathering peacefully in so-called 
        ``Jasmine Revolution'' rallies, with the purpose of 
        advocating for democratic reforms, among other issues. 
        In addition, authorities continued to detain, sentence, 
        and demonstrate little tolerance for those individuals 
        involved in political parties not sanctioned by the 
        Communist Party. For example, authorities handed down a 
        harsh sentence to Liu Xianbin for his democracy 
        advocacy activities and arrested Li Tie for posting 
        writings advocating for democracy on the Internet.
        <bullet> Direct elections for local people's congress 
        representatives are held only at the county level. 
        Authorities appeared to discourage ``independent 
        candidates'' who utilized online resources to campaign 
        in the latest round of local people's congress 
        elections, and news stories reported harassment of 
        ``independent candidates'' and their families. At least 
        100 ``independent candidates'' announced via microblog 
        their intention to run.
        <bullet> Chinese leaders continued to voice support for 
        village autonomy with the Party as the leading core. 
        While village committee elections have spread across 
        most of China, they continue to be plagued by official 
        interference and corruption. Major revisions to the law 
        governing village committee elections are likely to 
        alter the balance of authority in village-governing 
        organizations, partially because the law mandates 
        establishment of a new ``supervisory committee'' or 
        equivalent in every village. The revisions also clarify 
        election and recall procedures. The supervisory 
        committees may help to reduce village corruption, but 
        they may also act to ``maintain social stability'' by 
        stifling critical voices. Central-level officials 
        continued a survey of outstanding governance problems 
        at the grassroots level, and authorities in numerous 
        localities reported that they instituted a variety of 
        ``democratic management'' projects to improve relations 
        between village leaders and rural residents, to reduce 
        corruption, to improve information disclosure, and to 
        promote ``democratic'' public participation. The 
        Commission has not observed news media reports 
        containing details on the implementation and 
        sustainability of these pilot projects.
        <bullet> Authorities continued to express support for 
        government information disclosure and expanding the 
        transparency of Party affairs. In addition, the State 
        Council released the Opinion Regarding Strengthening 
        Construction of a Government That Rules by Law in 
        November 2010, which emphasizes enhancing government 
        information disclosure, with a focus on budgets, 
        allocation of public resources, approval and 
        implementation of major construction projects, and 
        nonprofit social causes. Beijing municipality issued a 
        measure that reportedly will, for the first time, 
        include Party leaders within the ``scope of 
        accountability.''
        <bullet> The Chinese government and Communist Party 
        reportedly sought to improve governance accountability, 
        and at the same time improve ``social management.'' The 
        government reportedly took limited steps to combat 
        corruption, which remains a significant problem. In the 
        2011 reporting year, the Chinese government issued 
        China's first white paper on corruption as well as 
        other measures to subject officials to financial 
        audits, encourage reporting of corruption, and protect 
        whistleblowers. Chinese government authorities revised 
        official evaluation models that could lead to greater 
        accountability, relieving pressure on officials to 
        falsify data in order to be promoted. Authorities 
        issued a major economic and social development plan for 
        the next five years (the 12th Five-Year Plan), which 
        notes that authorities will ``establish a community 
        management and service platform,'' linking service 
        provision and social management.
        <bullet> Citizens and groups in China have little 
        direct access to political decisionmaking processes; 
        however, they are increasingly able to use various 
        channels to express opinions regarding proposed 
        policies and regulatory instruments. New measures 
        stipulate that ``major'' policy decisionmaking 
        processes should include public participation, expert 
        argumentation, risk assessment, legal review, and group 
        discussions. The measures also stipulate that 
        authorities should track how their decisions are being 
        implemented.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to release people 
        detained or imprisoned for exercising their right to 
        call for political reform within China--including 
        democracy advocate Liu Xianbin, who was sentenced to 10 
        years in prison in March 2011 for ``inciting subversion 
        of state power''; the people detained for mentioning 
        the protests in the Middle East and North Africa or 
        calls for ``Jasmine'' protests in personal 
        communications or in Internet postings; and other 
        prisoners of conscience mentioned in this report and in 
        the Commission's Political Prisoner Database.
        <all> Support research programs for U.S. citizens to 
        study political and social developments at the 
        grassroots level in China and expand the number of U.S. 
        consulates throughout the country.
        <all> Support programs that aim to reduce corruption in 
        local people's congress and village committee 
        elections, including expansion of domestic election 
        monitoring systems, training of Chinese domestic 
        election monitors, and joint U.S.-Chinese election 
        monitoring activities.
        <all> Support continued substantive exchanges between 
        Members of the U.S. Congress and members of the 
        National People's Congress and the Chinese People's 
        Political Consultative Conference, especially in 
        relation to Congressional oversight processes and 
        budgetary matters.
        <all> Support projects of U.S. or Chinese organizations 
        that seek to work with local Chinese governments in 
        their efforts to improve transparency and 
        accountability, especially efforts to expand and 
        improve China's government information disclosure 
        initiatives. Such projects might include training in 
        the U.S. Freedom of Information system for Chinese 
        officials, joint efforts to better publicize the Open 
        Government Information (OGI) Regulations at local 
        levels, and citizen and group training about how to 
        submit OGI requests.
        <all> Support projects that assist local governments, 
        academics, and the nonprofit sector in expanding 
        transparent public hearings and other channels for 
        citizens to incorporate their input in the policymaking 
        process. Such projects might include an exchange 
        program component, whereby Chinese local government 
        officials and non-governmental organization 
        representatives would travel together to the United 
        States to attend town hall or public meetings that 
        address significant issues. Such projects might also 
        include pilot projects in China in which citizens' 
        suggestions to authorities about draft laws, 
        regulations, or policies are made available to the 
        public.

                              Introduction

    China's political system is dominated by the Communist 
Party, and Party organizations extend into and influence every 
sector of society. There is limited participation by non-Party 
members in political decisions. During the Commission's 2011 
reporting year, Chinese authorities intensified Party-building 
efforts and efforts to strengthen controls over society in the 
name of improving ``comprehensive management of public 
security'' and ``safeguarding stability.'' Leaders launched a 
widespread crackdown to thwart citizens' attempts to gather for 
peaceful demonstrations around the country, dubbed ``Jasmine'' 
protests by the organizers, which included advocating for 
democratic reforms. Leaders continued to have little tolerance 
for outspoken democracy advocates. Authorities continued to 
voice support for enhanced accountability, ``open government 
affairs,'' and greater public participation, although 
implementation of various measures was sporadic. The central 
government encouraged pilot grassroots-level ``democratic 
management'' programs, partially to reduce corruption, improve 
relations between officials and citizens, promote transparency, 
and encourage ``democratic'' public participation. While 
village elections for ``village committees'' have spread 
throughout China, their implementation remains problematic. 
Corruption remained a serious problem at all levels, and the 
central government issued the first ``white paper'' on 
corruption and reportedly strengthened anticorruption efforts.

             China's One-Party State and Political Control

    During this reporting year, Communist Party leaders 
accelerated efforts to reinvigorate the Party's dominance and 
involvement in all sectors of society. July 1, 2011, marked the 
90th anniversary of the founding of the Party, which reportedly 
had nearly 80.3 million members by the end of 2010 \1\ and has 
established more than 3.79 million committees and branches 
throughout the country.\2\ These organizations exert influence 
over every sector of society, including villages and urban 
neighborhoods,\3\ as well as most enterprises,\4\ public 
service organizations (including hospitals, schools, and 
research institutes),\5\ government departments, and quasi-
governmental and non-governmental organizations.\6\ Chinese 
leaders continued to insist upon the leading role of the Party 
and the infusion of Party principles in various sectors 
including ``managing talent'' (human resources), education, and 
the media.\7\ This reporting year, Party officials focused 
Party-building efforts on urban residents' committees,\8\ law 
firms, schools,\9\ and rural residents.\10\

    Increasing Social Controls in the Name of ``Safeguarding Social 
                              Stability''

    Chinese government and Party officials expanded social 
controls, especially mechanisms to monitor citizens and groups, 
in the name of strengthening ``comprehensive management of 
public security'' \11\ and ``safeguarding social stability.'' 
Authorities also appeared to link social control strategies 
with service provision, whereby outreach to citizens would 
involve both service provision and ``management'' tasks.\12\ In 
July 2011, the Information Office of the State Council noted 
that officials across China had opened 2,842 government affairs 
service centers at the provincial, autonomous prefectural, and 
municipal levels, and 25,000 (rural) township and (urban) 
street service centers.\13\ In November 2010, central 
government and Party officials issued an opinion about 
strengthening urban Party-affiliated resident committees that 
noted the growing role for the committees in ``safeguarding 
social stability.'' \14\ In addition, local and sector-specific 
officials implemented measures expanding controls over society:

        <bullet>  In Beijing, authorities appear to be 
        encouraging volunteers to monitor their fellow 
        citizens; they are expected to play a ``leading'' role 
        in ``comprehensive management'' by providing 
        information and reports related to ``stability,'' 
        sometimes for a monetary reward.\15\
        <bullet>  In March 2011, authorities in Shanghai 
        reportedly began to establish Party organizations in 
        some commercial buildings to monitor activities, as a 
        part of implementing local regulations on 
        ``comprehensive management.'' \16\ The regulations are 
        also the first to incorporate directives monitoring the 
        Internet into the city's ``comprehensive management'' 
        system.\17\
        <bullet>  Zhejiang provincial \18\ and Shenzhen 
        municipality \19\ authorities initiated measures to 
        control the movements of ``critical personnel'' 
        (zhongdian renshi). Zhejiang includes in this category 
        persons involved in ``rights defense'' activities, 
        petitioners who take their grievances to higher 
        administrative levels, and those suspected of 
        ``creating instability.'' \20\
        <bullet>  Education authorities strengthened the 
        ``student security informant'' system, which reportedly 
        operates covertly on campuses to safeguard stability, 
        and the ``student informant system,'' \21\ which 
        authorities use to monitor the political expression and 
        behavior of students and teachers.\22\ One school 
        bulletin board posting reportedly disclosed that 
        students who celebrated Liu Xiaobo's Nobel Peace Prize 
        award would not be eligible for scholarships.\23\ 
        Peking University reportedly banned students from 
        copying sensitive materials including those critical of 
        the Party,\24\ and announced plans to arrange 
        consultations for ``troublesome students,'' including 
        students with ``radical thoughts'' who hold critical 
        views of the university's management or who complained 
        about policy changes.\25\

------------------------------------------------------------------------
         2011 Crackdown: From Reform Advocates to Flower Vendors
-------------------------------------------------------------------------
  Authorities conducted a largely preventative crackdown amid calls for
 nonviolent, ``Jasmine'' protests in various cities in China.
 Authorities prevented some citizens from exercising their
 constitutional right \26\ to freedom of assembly, association, and
 speech, as well as to advocate for change including democratic reforms.
 [For more information on the 2011 crackdown, see Section II--Freedom of
 Expression and Section II--Criminal Justice.] Beginning in mid-February
 after the protests in the Middle East and North Africa, weekly calls
 for peaceful ``Jasmine'' protests in China to take place each Sunday
 appeared online, urging citizens to ``stroll'' around designated areas
 at designated times, in a gradually increasing number of cities.\27\
 The original anonymous statement circulated in China, also sent to and
 posted by an international Web site, Boxun, urged Chinese citizens to
 demonstrate for democratic reforms and against alleged corruption in
 China among other issues.\28\ On February 19, 2011, a few days after
 the appearance of the first online call for protests, and amid
 commemoration of 20 years of ``comprehensive management of social
 order'' work launched in 1991,\29\ top Chinese officials held a seminar
 for key provincial and ministry-level leaders. At the meeting,
 President Hu Jintao outlined eight main tasks for leaders to strengthen
 ``social management.'' \30\ According to the South China Morning Post,
 government-controlled newspapers including the Beijing Daily, the
 Jiefang Daily, and the Shanghai Morning Post issued front page articles
 warning against mass gatherings \31\ and emphasizing the need to
 strengthen ``social management'' and ``safeguard social harmony and
 stability.'' \32\
  Authorities have reportedly arrested, detained, ``disappeared,'' put
 under ``soft detention,'' or otherwise harassed over 200 citizens,
 writers, scholars, and political reform advocates since mid-
 February.\33\ Those arrested included Chen Wei,\34\ Ding Mao,\35\ and
 Ran Yunfei.\36\ Relevant central or local authorities also reportedly:

  <bullet>  Censored words and phrases related to the unrest in the
   Middle East and North Africa, and related to the word ``Jasmine'';
   \37\
  <bullet>  Declared jasmine flowers to be contraband and instructed at
   least one flower vendor in Beijing municipality to report on people
   seeking to purchase the flowers; \38\
  <bullet>  Urged some church followers not to join mass gatherings;
   \39\
  <bullet>  Detained two students in Chongqing municipality for posting
   news of the ``Jasmine'' protest strolls online, prevented some
   students from leaving certain campuses at specific times, issued
   notices asking students to stay away from sensitive areas, and warned
   students not to hold any collective gathering in order to avoid a
   misunderstanding; \40\
  <bullet>  Presented a strong showing of security personnel and
   equipment at locations in municipalities designated as ``Jasmine''
   rally sites \41\ and used water trucks to flood streets and sidewalks
   at those sites; \42\
  <bullet>  Closed some subway entrances and businesses near rally
   sites; \43\
  <bullet>  Assaulted at least 2 foreign journalists, detained more than
   12 international reporters in Shanghai and Beijing, and warned
   journalists in Beijing not to carry out interviews without
   permission; \44\ and
------------------------------------------------------------------------


------------------------------------------------------------------------
   2011 Crackdown: From Reform Advocates to Flower Vendors--Continued
-------------------------------------------------------------------------
  <bullet>  Disrupted mobile phone services.\45\

  Chinese authorities reportedly pressured European missions and
 interfered in at least 60 activities organized by the U.S. Embassy in
 Beijing between February and April leading to their cancellation,
 including ``cultural forums, school programs, [and] ambassadorial
 visits.'' \46\ The Ministry of Education reportedly warned Chinese
 academics not to cooperate with groups that promote democracy while
 they are abroad and have stepped up scrutiny of nonprofit groups,
 especially those that receive funding from the United States or the
 European Union.\47\
------------------------------------------------------------------------

              Official Actions Against Democracy Advocates

    Authorities continued to detain, arrest, and impose 
sentences on democracy advocates who exercised their right to 
freedom of assembly, speech, movement, and association 
guaranteed in China's Constitution and under international 
human rights standards. Authorities imposed a 10-year sentence 
on Liu Xianbin for ``inciting subversion of state power'' for 
writing and posting overseas articles that advocated for 
democratization, criticized Party rule, and supported the 
development of a ``strong opposition organization.'' \48\ In 
October 2010, officials in Wuhan city, Hubei province, arrested 
the prolific blogger Li Tie on charges of subversion.\49\ As of 
September 2011, news stories have not provided information 
regarding his sentence. Authorities in Qianjiang city, Hubei 
province, also detained, held incommunicado, illegally confined 
to his home, or denied basic utilities to former local people's 
congress delegate and elections expert Yao Lifa on at least 
seven occasions over the past reporting year, sometimes for a 
few days and other times for months.\50\ Amid the appearance of 
numerous ``independent candidates'' for local people's congress 
elections, authorities took Yao into custody on June 20 without 
charging him, and had not released him as of early August 
2011.\51\

      Intraparty Democracy and High-Level Debate Regarding Reform

    China's political institutions do not comply with the 
standards defined in Article 25 of the International Covenant 
on Civil and Political Rights,\52\ which China has signed and 
declared an intention to ratify.\53\ Nor do China's political 
institutions comply with the standards outlined in the 
Universal Declaration of Human Rights.\54\ These standards 
provide universal rights to freely choose accountable 
representatives through free and monitored elections, as well 
as protection for freedom of expression, assembly, and 
association. In China, however, the Communist Party continues 
to dominate government and allows only limited independent 
political participation. Chinese leaders maintain that 
intraparty democracy should come before democracy in society 
more widely.\55\ The notion of intraparty democracy has been a 
part of the Communist Party's basic institutional design since 
1956.\56\
    During the reporting period, official documents and 
statements continued to include vague support for undefined 
``democratic'' processes and reforms. At the same time, in 
September 2011, officials issued a white paper titled ``China's 
Peaceful Development'' that states, ``China is firm in 
upholding its core interests which include . . . China's 
political system established by the Constitution and overall 
social stability. . . .'' \57\ This is the first time officials 
have designated the current political system as a ``core 
interest.'' \58\ A Communist Party communique issued in October 
2010 emphasized that ``[g]reat impetus should be given to 
economic system reform, while vigorous yet steady efforts 
should be made to promote political restructuring.'' \59\ The 
PRC Outline of the 12th Five-Year Plan on National Economic and 
Social Development (12th Five-Year Plan) describes plans to 
``develop democracy and promote socialist political culture 
development,'' without providing specifics.\60\ Premier Wen 
Jiabao continued to assert the need for undefined political 
reforms including in an August 2010 statement declaring that 
``[w]ithout political reform, China may lose what it has 
already achieved through economic restructuring and the targets 
of its modernization drive might not be reached.'' \61\ State 
press reports, however, criticized calls for rapid democratic 
reforms in an apparent refutation of some of Wen's remarks.\62\ 
Other officials appeared to criticize ideological pluralism and 
emphasize the need for China to maintain a ``correct political 
orientation.'' \63\ At the March 2011 National People's 
Congress (NPC) annual meeting, Wu Bangguo, the Chairman of the 
NPC Standing Committee, said China would not ``copy'' western-
style political systems.\64\ An October 2010 People's Daily 
editorial reiterated that political development should proceed 
along a ``correct political direction . . . . [P]olitical 
structural reform is not to weaken, but to strengthen and 
improve the Party's leadership . . . .'' \65\

   Local People's Congress Elections and Criticism of ``Independent 
                              Candidates''

    Communist Party members continue to dominate local people's 
congress elections, but the congresses reportedly are no longer 
the ``rubber stamps'' they were in the past. Only township and 
county congress delegates are elected by the public, so higher 
level congresses are not elected by ordinary citizens. In May 
2009, an international researcher noted that Party members make 
up approximately 65 percent of township congresses and 
approximately 70 percent of congresses above this level.\66\ In 
October 2010, the NPC Standing Committee passed revisions to 
the 1992 Deputies Law of the National People's Congress and 
Various Levels of Local People's Congresses of the People's 
Republic of China.\67\ According to an official news source, 
the revisions will help to better protect delegates' rights to 
information and more clearly define their rights and 
duties.\68\
     Central officials appeared to discourage and prevent 
``independent candidates'' from running in local people's 
congress elections. While 10 or more citizens may nominate a 
candidate, sometimes resulting in a large number of ``voter-
nominated candidates,'' i.e., ``independent candidates,'' in 
the early stages of election activities, by the time election 
day arrives, most such candidates reportedly are winnowed 
out.\69\ Several articles in Party-affiliated newspapers warned 
of the dangers of including ``independent candidates'' in 
elections after blogger and writer Li Chengping, from Chengdu 
city, Sichuan province, gained more than 2.9 million followers 
on the Internet when he declared his candidacy.\70\ 
Subsequently, more than 100 such candidates reportedly declared 
their candidacy online.\71\ In May 2011, in Xinyu city, Jiangxi 
province, security personnel from an enterprise reportedly held 
local ``independent candidates'' Liu Ping, Wei Zhongping, and 
Li Sihua to prevent them from campaigning or participating in a 
district-level election.\72\ The three were released shortly 
after the election took place.\73\ Officials also reportedly 
detained Du Quanbing, who traveled to Xinyu to observe the 
election proceedings.\74\ In late June, news stories reported 
additional harassment of ``independent candidates'' and their 
families.\75\ A May article in the Party-affiliated Global 
Times noted that ``independent candidates'' could play a 
positive role, but also asserted that it was not suitable to 
allow candidates who held opinions different from those of the 
current political system to run; and that such candidates would 
bring ``even more turbulence, threatening the cohesion of the 
nation.'' \76\

        Village Elections and ``Democratic Management'' Projects


    trends in village elections and related legislative developments


    While village elections have spread to all provinces and 
most villages in China, they reportedly continue to be plagued 
by official interference, corruption,\77\ and, in at least one 
case, violence.\78\ Corruption problems reportedly include such 
things as election bribery \79\ and gift-giving in exchange for 
votes.\80\ One example of official interference occurred in 
July 2010 in a village in Fangshan, a suburban district in 
Beijing; officials there reportedly interfered with vote 
counting, allegedly upon orders of the incumbent village 
leader, leading to a standoff with villagers.\81\ Fangshan 
officials called in 200 police, who then detained several 
villagers, some for reportedly ``obstructing traffic.'' \82\
    In October 2010, the NPC Standing Committee passed 
revisions to the PRC Organic Law of the Villagers' 
Committees,\83\ which clarified election and recall 
procedures.\84\ The revisions stipulate that every village must 
establish a ``supervisory committee'' or similar 
organization,\85\ which may permanently alter the distribution 
of power among village-governing organizations, possibly 
reining in the power of village committees. The ``supervisory 
committees'' are intended to promote a more ``harmonious 
society,'' prevent corruption, and deepen ``open village 
affairs'' and ``democratic management.'' \86\ The deputy 
minister of the Ministry of Civil Affairs noted in November 
2010 that 85 percent of the country's villages had already 
established supervisory committees or their equivalent.\87\ 
Some news articles note that villages are now governed by 
``three committees'' (Party, village, and supervisory 
committees).\88\ In general, it appears that the Party 
committee makes decisions, the village committee implements 
those decisions, and the supervisory committee oversees the 
decisions.\89\ However, relative authority among the three 
committees, as well as other village organizations, may vary 
from village to village. The revisions also appear to provide a 
stronger legal foundation for the authority of ``villager 
representative assemblies.'' \90\ Provincial-level authorities 
in at least three provinces (Guangdong, Hubei, and Qinghai) 
revised regulations governing village committee and/or urban 
resident committee elections, which for the first time 
stipulate the establishment of official Party- and government-
sponsored election observer systems.\91\ It is unclear whether 
officials will tolerate non-governmental monitoring activities.
    Major trends in grassroots governance highlight the efforts 
of the Party to strengthen control at the grassroots level and 
central authorities' efforts to improve the competence of 
village officials. Higher level authorities continued to 
encourage the same person to serve as village Party secretary 
and village committee head, reversing the trend started in the 
late 1980s to separate Party and government positions.\92\ 
While this development may reduce perceived conflict over power 
in villages,\93\ it strengthens Party control and may also 
decrease competition for and oversight of authority. This 
development highlights the importance of the order in which 
Party and village committee elections take place. Authorities 
reportedly sought to enhance village-level accountability and 
improve the competence \94\ of local officials in a variety of 
ways, including increasing salary levels,\95\ using college 
graduates \96\ and ``extra-payroll'' officials,\97\ and 
incorporating Party members ``without a post'' or ``old'' Party 
members as ``senators'' into village governing processes to 
promote more ``harmonious'' relations and to improve 
decisionmaking processes.\98\ In some localities, by the end of 
2010, a greater percentage of elected village and Party leaders 
reportedly had higher educational and professional skill levels 
than in the past.\99\


     ``difficult villages'' and ``democratic management'' projects


    Likely in response to growing discontent and erosion of 
Communist Party legitimacy at the grassroots level, central and 
local authorities continued programs to ``transform'' so-called 
``difficult villages'' and to implement ``democratic 
management'' projects. Programs to rectify ``difficult 
villages'' \100\ (i.e., villages where tensions between 
citizens and officials are present, where people's aspirations 
and demands have not been met, or where there are unresolved 
economic or social problems, among other problems) \101\ 
reportedly are basically complete.\102\ During this reporting 
year, ``democratic management'' pilot projects in some 
localities focused on strengthening the role of the Party at 
the grassroots level, promoting economic development, and 
improving participation and transparency while ``safeguarding 
stability.'' \103\ Hebei, Guangdong, Hunan, Shaanxi, and other 
provinces issued ``open village affairs'' or similar 
regulations to accomplish these goals.\104\ Some villages also 
established ``villager financial management groups,'' \105\ 
``transparent account book systems,'' \106\ or ``Sunshine 
Village Affairs Projects.'' \107\ The effects of most of these 
pilot projects remain unclear, and one Chinese researcher 
believes most to be transitory.\108\

     Accountability and Transparency: Party and Government Reforms


  building a ``rule by law government,'' accountability, and official 
                        evaluation system reform


    The State Council and the National People's Congress (NPC) 
continued or initiated policy measures to enhance government 
accountability. At the annual meetings of the NPC and the 
Chinese People's Political Consultative Conference in March 
2011, Wu Bangguo reportedly promised that the NPC would enhance 
accountability through its work on supervision of the 
government, especially in the areas of ``low-income housing, 
government budgets, education reform, and strengthening 
primary-level courts and procura
torates.'' \109\ In November 2010, the State Council issued the 
Opinion Regarding Strengthening Construction of a Government 
That Rules by Law. The Opinion points out several problems that 
need to be addressed, including increasing ``social 
contradictions'' in some localities and fields, ``mass 
incidents'' occurring with some frequency, ``corruption in some 
fields,'' ``unjust law enforcement,'' and ``negligible or 
arbitrary administration.'' \110\ The Opinion calls for deeper 
reforms, stronger institutions, enhanced government 
supervision, restriction of administrative powers, and ``a 
government ruled by law.'' \111\ On June 30, the NPC Standing 
Committee adopted the PRC Law on Administrative Coercion, which 
will come into force on January 1, 2012, after a 12-year 
drafting process. The law is meant to resolve the problems of 
official infringement of citizens' legal rights and weak 
enforcement of regulatory instruments by government agencies, 
according to an official with the NPC Standing Committee 
Legislative Affairs Commission as reported by the Beijing 
Review.\112\ In July, news reports indicated that the revisions 
of the PRC Administrative Reconsideration Law had advanced to 
the legislative planning phase and that it is possible the 
revisions will expand the scope of administrative 
reconsideration cases to be accepted in the future.\113\ The 
revised PRC State Compensation Law, which came into effect on 
December 1, 2010, could, if implemented, provide citizens more 
opportunities to obtain compensation when government officials 
violate their rights.\114\
    There have been both potentially encouraging and seemingly 
unconstructive developments in official evaluation system 
reforms. Authorities plan to revise official professional 
evaluation standards based on a new system that takes regional 
economic, geographical, and social differences into 
account.\115\ The new standards could lead to greater 
accountability because they could reduce incentives for 
falsifying information given to higher level officials to 
improve promotion chances. Official responsibility and 
evaluation systems sometimes provide incentives to suppress 
citizens who want to take their grievances to higher level 
authorities.\116\ One Chinese editorial pointed out the dangers 
of incorporating ``stability preservation'' into cadre 
evaluation systems, because officials may put ``safeguarding 
stability'' above everything else or seek to ``control 
petitions'' and, as a result, cover up problems.\117\ One 
document indicates officials in one county can be marked down 
for collective petitions received at higher levels of 
government and for the number of ``unsafe political incidents 
that affect national security.'' \118\ In one case, authorities 
said they would withhold grain subsidies if citizens made 
complaints to higher level officials.\119\

                     Accountability and Corruption


                               corruption


    Corruption reportedly remains high, and Premier Wen Jiabao 
recently emphasized that corruption poses a significant danger 
to Communist Party rule.\120\ Corruption also reportedly 
continues to be one of the top concerns of Chinese 
citizens.\121\ During this reporting year, official discipline 
inspection and supervision entities reported receiving over 1 
million accusations and complaints against officials from 
citizens between January and December 2010.\122\ Authorities 
reportedly opened 7,349 malfeasance and rights infringement 
cases perpetrated by 10,227 government officials in 2010; 3,508 
of these cases were considered major or serious.\123\


         measures to curb corruption and promote accountability


    Chinese authorities took regulatory steps to address 
corruption,\124\ and in December 2010 the State Council issued 
China's first white paper on corruption titled ``China's 
Efforts To Combat Corruption and Build a Clean Government.'' 
\125\ Prior to that, on December 8, 2010, top Party and 
government authorities jointly issued the Provisions on 
Economic Responsibility Audits for Chief Leading Cadres of the 
Party and the Government and Executives of State-Owned 
Enterprises, which seek to strengthen supervision and 
management of cadres.\126\ In addition, on December 15, 2010, 
authorities issued the Provisions Regarding Implementation of 
the Responsibility System for Construction of an Honest Party 
and a Clean Government.\127\ In February 2011, the NPC Standing 
Committee amended the PRC Criminal Law to criminalize the 
giving of items of value to an official of a foreign government 
or international organization in order to obtain an improper 
commercial benefit. The amendment went into effect on May 1, 
2011.\128\ Authorities issued a new anti-bribery law that went 
into effect in May and will apply to state-owned enterprises 
and private companies.\129\ In July, top Party and government 
officials issued the Provisions Regarding Rural Village 
Grassroots Officials' Honest Performance of Duties (Trial 
Implementation), which prohibit 41 specific types of behavior 
of grassroots officials, including ``participating in, 
coddling, or supporting criminal syndicates or evil forces'' 
and ``violating stipulations by seizing and taking citizens' 
money or property, or by penalizing citizens.'' \130\
    Authorities also took limited steps to encourage reporting 
of corruption and to protect whistleblowers. Protections for 
whistleblowers, however, are insufficient and authorities have 
discouraged independent anticorruption Web sites. The Supreme 
People's Court and provincial courts reportedly established 
corruption reporting Web sites.\131\ Revisions to the PRC Law 
on Administrative Supervision require authorities to inform a 
person who files a ``real-name'' report about the results of 
the corresponding inquiry. A new section stipulates that 
officials must keep confidential the information they collect 
about citizens who provide tips.\132\ According to the Legal 
Daily, 70 percent or more of the cases of work-related offenses 
filed with procuratorate offices initially involved a tip from 
a citizen.\133\ According to material from the Supreme People's 
Procuratorate reported by the Legal Daily, 70 percent of the 
people who filed tips with procuratorate offices were subject 
to some form of retribution.\134\ In July, court officials in 
Tengzhou city, Shandong province, rejected an appeal by 
journalist Qi Chonghuai, known for his official corruption 
exposes, sending him to prison for eight years on the charge of 
embezzlement.\135\ This follows the four-year sentence he had 
already completed after being convicted of extortion and 
blackmail following his posting of stories online about alleged 
corrupt practices of municipal government officials.\136\ While 
authorities have established official tip sites, some have 
blocked non-governmental whistleblower Web sites.\137\ In the 
summer of 2011, new sites based on ``confess-a-bribe'' Web 
sites in India began to appear in China.\138\ As of mid-June 
2011, there were at least eight Chinese independent platforms 
for reporting bribes, reportedly receiving tens to hundreds of 
thousands of hits.\139\ The sites were unregistered, leaving 
them vulnerable to closure.\140\ Authorities began blocking 
access to the sites and warning some of the webmasters to close 
their sites by mid-June.\141\ At least two of these sites were 
targets of cyber attacks.\142\


           transparency and open party and government affairs


    Authorities reportedly strengthened policies favoring 
government information disclosure, although the State Council 
has implemented transparency commitments inconsistently, and 
citizens continued to face challenges in accessing information 
and bringing cases to court. An April 2011 report by the US-
China Business Council noted that China has pledged to publicly 
release drafts of all economic laws and regulations for 30 
days.\143\ The report found, however, that over a recent 11-
month period the State Council had posted no more than half of 
its rules and regulations for public comment, with only a few 
being posting for the full 30 days.\144\ In contrast, the 
report found that the National People's Congress had posted 
drafts of most laws for the full 30 days.\145\ At the May 2011 
U.S.-China Strategic & Economic Dialogue, China pledged to 
issue a measure in 2011 requiring that all proposed trade- and 
economic-related administrative regulations and departmental 
rules (with certain exceptions) be published on the State 
Council Legislative Affairs Office Web site for at least 30 
days.\146\
    In November 2010, the State Council Opinion Regarding 
Strengthening Construction of a Government That Rules by Law 
(the Opinion) reiterated that ``making government information 
public is the principle, while a few exceptions are allowed.'' 
\147\ Authorities reportedly also sought to strengthen 
information disclosure at the grassroots level.\148\ In 
December 2010, the Supreme People's Court passed a provision 
that stipulates courts shall accept five types of 
administrative cases brought by citizens suing government 
departments for failing to provide information that legally 
should be open to the public. The provision also stipulates 
that courts are not authorized to accept cases under four types 
of vaguely defined conditions,\149\ leaving significant leeway 
for courts not to accept cases. The 12th Five-Year Plan, issued 
in March 2011, specifies that China will establish and improve 
``open information'' to advance digitalization of government 
affairs.\150\ In August, just after Chinese citizens flooded 
the Internet with inquiries regarding the lack of transparency 
about a high-speed train accident in Wenzhou city, Zhejiang 
province,\151\ central Party and government officials issued 
the Opinion Regarding Deepening Open Government Affairs and 
Strengthening Government Services, which includes an item 
stating that officials should ``take great efforts to make 
transparent information about major sudden incidents and issues 
of concern to citizens . . . and correctly guide public 
opinion.'' \152\ [For more information on media coverage of the 
train incident and ``guiding public opinion,'' see Section II--
Freedom of Expression.]
    Nevertheless, officials continued to deny open government 
information requests for reasons that appear to contradict the 
spirit of the law. One study of open government information 
annual reports submitted by national, provincial, and some city 
government organizations conducted by researchers in China 
reportedly found that officials continue to refuse to grant 
information disclosure requests because officials claimed the 
``information is not available,'' the information would 
``influence social stability,'' and the information ``involves 
state secrets.'' \153\
    Voluntary disclosure of government budgetary information 
remained an area of progress, although challenges remain. The 
State Council Opinion Regarding Strengthening Construction of a 
Government That Rules by Law stipulates that officials should 
more actively make government information public and focus on 
``financial budgets, allocation of public resources, approval 
and implementation of major construction projects, and non-
profit social causes.'' \154\ In early July 2011, government 
departments under the State Council began to make public 
information on expenditures for overseas trips, public 
relations, and vehicles, otherwise known as the ``Three 
Publics.'' By late July, 86 of the 98 departments under the 
State Council had made their expenditures public.\155\ Central 
officials also have required central government departments 
that have their budgets approved by the National People's 
Congress to make their annual budgets public. As of the end of 
May, 88 of the 98 departments reportedly had disclosed their 
budgets to the public.\156\ In July, the State Council Standing 
Committee reportedly said it was necessary to ``vigorously 
advance'' budget transparency, to expand the scope of 
transparency, and refine disclosed content.\157\ According to 
one survey, the Ministry of Finance expanded the number of 
items it made public in the national budget.\158\ Although 
central-level ministries, the governments of Shaanxi province 
and Guangxi Zhuang Autonomous Region, and other areas have 
opened their 2011 budgets to the public, many citizens 
reportedly believe that the information provided is incomplete 
and that the budget category of ``other expenses'' hides 
information.\159\
    Central Party leaders continued to make policy 
announcements regarding their intent to expand the transparency 
of Party affairs, and the Beijing municipal government took 
policy steps to enhance Party accountability. In October 2010, 
a top Party organization issued a policy document that outlined 
the ``guiding thought'' and basic principles for putting into 
practice ``open Party affairs'' at the lowest administrative 
levels, as well as the content to be made public.\160\ The 
Beijing municipal government issued the Beijing Municipal 
Implementation Measure in January 2011, which for the first 
time includes Party leaders in the ``scope of accountability.'' 
\161\ Authorities announced that 13 central Party departments, 
31 provinces, autonomous regions, and municipalities, and 
nearly half of China's prefectural-level cities have already 
established Party press spokesperson systems.\162\

   Public Input in Decisionmaking, Interest Articulation, and Public 
                                Hearings

    Citizens and groups in China have little direct access to 
political decisionmaking processes; however, they are 
increasingly able to utilize various channels to express 
opinions regarding proposed policies and regulatory 
instruments. The 12th Five-Year Plan stipulates that ``it is 
necessary to give full play'' to ``people's organizations, 
trade associations, and mass media to express social 
interests'' and that authorities will expand the ``degree of 
public participation'' in decisionmaking.\163\ The Opinion 
Regarding Strengthening Construction of a Government That Rules 
by Law (Opinion), issued in November, stipulates that ``before 
major decisions are made [authorities] should widely solicit 
and adequately assimilate opinions from all sides.'' \164\ It 
requires that ``public opinion . . . be solicited'' with 
respect to ``administrative laws and regulations . . . that 
have direct influence on rights and obligations of citizens, 
legal person [sic] or other organizations.'' In addition, the 
Opinion stipulates that ``what opinions are adopted, and why, 
should be made public in appropriate formats.'' \165\

                                Endnotes

    \1\ ``Central Organization Department: By the End of 2010, the 
Chinese Communist Party Reached 80.269 Million Members'' [Zhongzubu: 
jiezhi 2010 niandi zhonggang dangyuan zongshu 80.269 wan ming], China 
News, 24 June 11.
    \2\ ``At the End of 2009 Total Number of Party Members Reaches 
77,995,000 Nationally'' [Jiezhi 2009 niandi quanguo dangyuan zongshu da 
7799.5 wan ming], Chinese Communist Party News Net, 28 June 10.
    \3\ Ibid. There are 6,629 urban street Communist Party 
organizations, 34,224 town organizations, 80,000 residential 
committees, and 598,000 village committees.
    \4\ Ibid. Over 99 percent of the various types of eligible 
enterprises have Party organizations.
    \5\ Ibid. Of the country's 570,000 public service organizations, 
471,000 have Party organizations.
    \6\ Ibid. The numbers here include eligible 13,000 ``social 
organizations'' (shehui tuanti), of which 12,000 have Party 
organizations, and 16,000 eligible ``nonprofit enterprises'' (minban 
feiqiye), of which 15,000 have Party organizations.
    \7\ National People's Congress, Outline of the Economic and Social 
Development 12th Five-Year Plan of the People's Republic of China'' 
[Zhonghua renmin gongheguo guomin jingji he shehui fazhan di shier ge 
wunian guihua gangyao], issued 14 March 11. In relation to assigning 
government posts, authorities must ``uphold the principle of the Party 
managing talent'' (chap. 29 (3)); in relation to the education system, 
authorities will ``comprehensively implement the Party's educational 
principles. . . .'' (chap. 28). ``Remarks at 11th China Journalists' 
Day and Presentation of Awards and Report Meeting'' [Zai di shiyi jie 
zhongguo jizhe jieji banjiang baogaohui shang de jianghua], People's 
Daily, 9 November 11. With regards to the media, ``Party principles 
should be taken as basic principles in news propaganda work.'' ``Liu 
Binjie: Political System Reform Must Insist on the Correct 
Orientation'' [Liu binjie: zhengzhi tizhi gaige bixu jianchi zhengque 
fangxiang], China Press and Publications Daily, 17 November 10. In 
addition, ``the Party is in charge of the media, which cannot change.''
    \8\ Central Committee of the Communist Party General Office and 
State Council General Office, ``Opinion Regarding Strengthening and 
Improving Development of Urban Residence Committees'' [Guanyu jiaqiang 
he gaijin chengshi shechu jumin weiyuanhui jianshe de yijian], issued 9 
November 10.
    \9\ ``China's Justice Minister Calls for Better Party Building in 
Law Firms,'' Xinhua, 23 November 10.
    \10\ ``CPC Seeks Closer Ties With China's Grassroots To Consolidate 
Ruling Status,'' Xinhua, 6 June 11. This reporting year, Party 
officials took measures to ``consolidate [the Party's] ruling status'' 
in a campaign aimed at rural residents. For instance, the Ganzhou 
municipal government, Jiangxi province, sent 20,000 Party members to 
3,751 villages at the end of 2010.
    \11\ Central Committee of the Communist Party and State Council, 
Decision Concerning Strengthening Comprehensive Management of Social 
Order, issued 19 February 91; ``Authorities Crack Down on Rights 
Defenders, Lawyers, Artists, Bloggers,'' Congressional-Executive 
Commission on China, 3 May 11.
    \12\ ``Social Management Innovations Take People's Livelihood as 
the Main Line, 35 Pilot Project Communities Nationally Give Impetus for 
Innovation'' [Shehui guanli chuangxin yi minsheng wei zhuxian quanguo 
35 ge shidian diqu fali chuangxin], Legal Daily, reprinted in People's 
Daily, 13 June 11. Outreach activities allow officials to monitor and 
gauge if citizens are a threat to ``stability,'' while simultaneously 
taking care of social welfare issues. ``Focus on Social Management's 
Difficult Problems, Really Resolving Contradictions Requires Putting 
People First'' [Jujiao shehui guanli nanti yiren weiben caineng 
zhenzheng huajie maodun], Xinhua, 19 February 11. In an economic 
development zone in Hefei city, Anhui province, 119 responsible 
personnel would ``learn about the affairs of 100 households'' in the 
city's 21 communities, engaging in ``face-to-face'' service provision 
and coordinating social management work. In Dongcheng district, 
Beijing, ``network management'' personnel work to set up a database 
with information on ``people, land, property, matters, and 
sentiments.''
    \13\ ``Assessment Report on the National Human Rights Action Plan 
of China (2009-2010)'' [Guojia renquan xingdong jihua (2009-2010 nian) 
pinggu baogao], Xinhua, 14 July 11, sec. 3(5).
    \14\ Opinion Regarding Strengthening and Improving Development of 
Urban Residence Committees [Guanyu jiaqiang he gaijin chengshi shechu 
jumin weiyuanhui jianshe de yijian], issued 9 November 10. The preface 
of this Opinion emphasized the ``more prominent [resident committee] 
function of safeguarding social stability, the increasing importance of 
community residence committees to take on social management tasks, and 
the more urgent service demands of community resident committees by 
citizens.''
    \15\ ``Beijing Addresses New Challenges in Social Management, Makes 
Innovations in Comprehensive Management Work Mechanisms'' [Beijing 
yingdui shehui guanli xin tiaozhan chuangxin zongzhi gongzuo xin 
tizhi], Xinhua, 18 June 10.
    \16\ ``Building Comprehensive Management and Internet Management 
Included for First Time'' [Luoyu zongzhi wangluo guanli bei shouci 
naru], Liberation Daily, 2 March 11.
    \17\ Ibid.
    \18\ ``Zhejiang Police's Internal Document: Controlling the 
Movements of Critical Persons,'' China Digital Times, 2 March 10.
    \19\ ``Shenzhen Evicts More Than 80,000 `Security High-Risk 
Personnel,' Including People With Mental Illnesses'' [Shenzhen qingchu 
8 wanyu ``zhi'an gaowei renyuan'' baokuo jingshenbingren], Chongqing 
Evening News, reprinted in Phoenix Net, 12 April 11; ``Shenzhen Plans 
Comprehensive Investigation of `High-Risk Personnel' To Create a Stable 
Situation'' [Shenzhen jihua quanmian paicha ``gaowei renyuan'' zhizao 
wending jumian], Radio Free Asia, 20 November 10. The Shenzhen 
municipal Party Committee and the municipal government passed measures, 
called ``Certain Opinions Regarding Strengthening Social Management 
Structures, Public Security, and Solid Prevention and Control 
Systems,'' which stipulate the establishment of an ``intelligence 
information network,'' a ``basic prevention network,'' a ``surveillance 
and control network,'' and an ``Internet management and control 
network,'' among others, in order to maintain ``stability.''
    \20\ ``Zhejiang Police's Internal Document: Controlling the 
Movements of Critical Persons,'' China Digital Times, 2 March 10.
    \21\ ``China: Student Informant System To Expand, Limiting School 
Autonomy, Free Expression,'' CIA Directorate of Intelligence (Open 
Source Works), 23 November 10. The ``student informant system'' 
reportedly is more open, includes one student informant in each class 
to monitor teachers' and students' political attitudes, and employs 
denunciation techniques.
    \22\ Ibid. Education officials reportedly started to strengthen the 
student informant system in 2005, which then reportedly was extended to 
lower-tier universities and middle and high schools in some parts of 
the country. Public debate about the ``student informant centers'' 
reportedly focuses on the risk of propagating a ``culture of 
denunciation,'' of deterring freedom of speech, and potentially harming 
the development of gifted students.
    \23\ Ibid.
    \24\ Huang Shaojie, ``PKU Copy Rooms Censor Materials,'' Global 
Times, 19 January 11.
    \25\ He Dan, ``Peking University's Plan Stirs Questions,'' China 
Daily, 26 March 11.
    \26\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \27\ Gillian Wong, ``AP Exclusive: Internet-Savvy Network of 20 Is 
Behind Protest Calls That Have Rattled China,'' Associated Press, 
reprinted in Yahoo!, 6 April 11; ``Red Armbands Go Into Battle While 
Authorities Monitor Those Passing by, Communications Are Monitored as 
Personnel Assemble in the Capital'' [Hongxiuzhang shangzhen jianshi lu 
ren tongxun jianting renyuan ju jingcheng], Radio Free Asia, 25 
February 11; ``Organizer of Chinese Jasmine Rallies Extends an Open 
Letter to the Whole Nation'' [Zhongguo molihua jihui zuzhizhe zhi 
quanguo renmin gongkaixin], Boxun, 21 February 11.
    \28\ ``Organizer of Chinese Jasmine Rallies Extends an Open Letter 
to the Whole Nation'' [Zhongguo molihua jihui zuzhizhe zhi quanguo 
renmin gongkaixin], Boxun, 21 February 11. The statement appeared to 
say that the organizers were willing to give the Communist Party time 
to resolve problems, but that if it could not eliminate corruption and 
accept citizen ``supervision,'' then it should ``retreat from the stage 
of history.'' The statement said, ``We do not support violent 
revolution; we persist in non-violent non-cooperation.'' Further, the 
statement indicated that the organizers did not care if China had a 
one-, two-, or three-party system, but that government officials must 
accept citizen ``supervision,'' and that China must have judicial 
independence.
    \29\ ``Peaceful Road With Chinese Characteristics Out of 20 Years 
of Comprehensive Management'' [Zongzhi 20 nian zouchu yitiao zhongguo 
tese pingan zhilu], Legal Daily, 1 March 11. 2011 marks the 20th 
anniversary of the establishment of the Central Committee on 
Comprehensive Management of Social Order that was put in place in 1991, 
as well as the two official decisions that were issued in 1991 that 
contain the ``guiding principles'' related to ``social order,'' 
``maintaining social stability,'' and ensuring ``lasting stability and 
durable peace.''
    \30\ ``Hu Jintao: Firmly Raise the Standard for Scientification of 
Social Management'' [Hu jintao: zhazha shishi tigao shehui guanli 
kexuehua shuiping], Xinhua, 19 February 11.
    \31\ Ren Siwen, ``Be Conscious of Upholding Social Harmony and 
Stability'' [Zijue weihu shehui hexie wending], Beijing Daily, 5 March 
11; Ren Siwen, ``Upholding Stability Begins With Each Individual'' 
[Weihu wending cong mei geren zuoqi], Beijing Daily, 6 March 11; 
``Police Out in Force Again To Stop `Jasmine' Rallies Flowering,'' 
South China Morning Post, 7 March 11.
    \32\ Li Liyan, ``People's Editorial: Why the Communist Party 
Central Committee Attaches Great Importance To Strengthening of and 
Innovation in Social Management'' [Renmin shiping: zhongyang weihe 
gaodu zhongshi jiaqiang he chuangxin shehui guanli], People's Daily, 23 
February 11; Ren Siwen, ``Be Conscious of Upholding Social Harmony and 
Stability'' [Zijue weihu shehui hexie wending], Beijing Daily, 5 March 
11; ``Chinese Official Press Attack `Jasmine' Gatherings'' [Zhongguo 
guanmei pingji ``molihua'' jihui huodong], Radio Free Asia, 5 March 11.
    \33\ Chinese Human Rights Defenders, ``Escalating Crackdown 
Following Call for `Jasmine Revolution' in China,'' 31 March 11. 
According to Chinese Human Rights Defenders, ``The Chinese government 
has criminally detained a total of 26 individuals, disappeared more 
than 30, and put more than 200 under soft detention.'' For Commission 
analysis, see ``Authorities Crack Down on Rights Defenders, Lawyers, 
Artists, Bloggers,'' Congressional-Executive Commission on China, 3 May 
11.
    \34\ Chinese Human Rights Defenders, ``Suining City Public Security 
Bureau Notice of Criminal Detention to Chen Wei'' [Suiningshi gonganju 
dui chen wei de xingshi juliu tongzhishu], reprinted in Boxun, 22 
February 11; Democratic China, ``Chen Wei: Me and the `92 Democracy 
Movement' '' [Chen wei: wo yu jiuer minzhu yundong], 11 September 10.
    \35\ Chinese Human Rights Defenders, ``Escalating Crackdown 
Following Call for `Jasmine Revolution' in China,'' 31 March 11; 
Chinese Human Rights Defenders, ``A Quiet Crackdown, Yet Likely the 
Harshest in Recent Years,'' 25 February 11.''
    \36\ Human Rights in China, ``Independent Intellectual Ran Yunfei 
Arrested on ``Inciting Subversion of State Power'' Charge'' [Zheming 
duli zhishi fenzi ran yunfei bei yi shexian `shandongzui' daibu], 28 
March 11; Chinese Human Rights Defenders, ``A Quiet Crackdown, Yet 
Likely the Harshest in Recent Years,'' 25 February 11; ``Ran Yunfei 
Detained for the Crime of Subversion, All Circles Are Shocked and Decry 
[Detention]'' [Ran yunfei bei yi dianfu zuiming xingju, gejie zhenjing 
qianze], Radio Free Asia, 24 February 11.
    \37\ Jeremy Page, ``Beijing Blocks Protest Reports,'' Wall Street 
Journal, 31 January 11; Edward Wong and David Barboza, ``Wary of Egypt 
Unrest, China Censors Web,'' New York Times, 31 January 11. For 
Commission analysis, see ``Authorities Censor Access to Information on 
Middle East and Chinese `Jasmine' Protests,'' Congressional-Executive 
Commission on China, 22 March 11.
    \38\ Andrew Jacobs and Jonathan Ansfield, ``A Revolution's Namesake 
Is Contraband in China,'' New York Times, 10 May 11.
    \39\ ``Chinese Church Leaders Urge Followers Not To Join Street 
Gatherings,'' Xinhua, 4 March 11 (Open Source Center, 4 March 11).
    \40\ ``Jasmine Open for Third Time, Beijing Subway Closed, Hong 
Kong Residents Expressing Support Taken Into Custody'' [Molihua kai 
sandu beijing ditie beifeng gangmin shengyuan beizhua], Epoch Times, 7 
March 11; ``Universities Targeted in `Jasmine' Crackdown,'' Radio Free 
Asia, 7 March 11. Chinese Government Takes Strict Precautions for 
Fourth Jasmine Exercise, Plainclothes Police Outnumber Pedestrians'' 
[Zhongguo zhengfu yanfang disi bo molihua huodong, jingcha bianyi 
chaoguo sanbuzhe renshu], Radio Free Asia, 13 March 11; ``Two Chongqing 
Students Detained for Transmitting News of `Jasmine Revolution' '' 
[Chongqing liang xuesheng yin shangwang zhuanfa ``molihua geming'' 
xinxi beiju], Radio Free Asia, 2 March 11; ``Beijing High School 
Students Admonished: Do Not Organize Collective Activities'' [Beijing 
gaoxiao quanjie xuesheng: jinqi wu zuzhi jiti huodong], Radio Free 
Asia, 2 March 11.
    \41\ ``Police Out in Force Again To Stop `Jasmine' Rallies 
Flowering,'' South China Morning Post, 7 March 11; Ian Johnson, ``Call 
for Protests in China Draws More Police Than Protesters,'' New York 
Times, 27 February 11; Malcolm Moore, ``Heavy-Handed Reaction to 
China's `Jasmine' Protests,'' Telegraph, 27 February 11.
    \42\ Ian Johnson, ``Call for Protests in China Draws More Police 
Than Protesters,'' New York Times, 27 February 11; Malcolm Moore, 
``Heavy-Handed Reaction to China's `Jasmine' Protests,'' Telegraph, 27 
February 11.
    \43\ ``Jasmine Open for Third Time, Beijing Subway Closed, Hong 
Kong Residents Expressing Support Taken Into Custody'' [Molihua kai 
sandu beijing ditie beifeng gangmin shengyuan beizhua], Epoch Times, 7 
March 11; Malcolm Moore, ``Heavy-Handed Reaction to China's `Jasmine' 
Protests,'' Telegraph, 27 February 11.
    \44\ Ian Johnson, ``Call for Protests in China Draws More Police 
Than Protesters,'' New York Times, 27 February 11; Malcolm Moore, 
``Heavy-Handed Reaction to China's `Jasmine' Protests,'' Telegraph, 27 
February 11; ``Police Out in Force Again To Stop `Jasmine' Rallies 
Flowering,'' South China Morning Post, 7 March 11.
    \45\ Frank Ching, ``Don't Look for Jasmine Revolution or Tea in 
China,'' Yale Global Online, 7 March 11.
    \46\ Edward Wong and Jonathan Ansfield, ``Beijing Blames Foreigners 
For Its Fears of Unrest,'' New York Times, 8 May 11.
    \47\ Ibid.
    \48\ Chinese Human Rights Defenders, ``Liu Xianbin Case Trial Oral 
Judgment Announcement of 10 Years, Family and Lawyers Cannot Visit'' 
[Liu xianbin an fating koutou pan shi nian xingqi, jiaren lushi wufa 
huijian], 25 March 11; Human Rights in China, ``Activist Sentenced to 
Ten Years for Inciting Subversion; Essays Cited as Evidence,'' 25 March 
11; Chinese Human Rights Defenders, ``Liu Xianbin Already Formally 
Indicted'' [Liu xianbin yijing bei zhengshi qisu], 17 November 10; 
Chinese Human Rights Defenders, ``Sichuan Activist Liu Xianbin's 
Criminal Sentencing Document'' [Sichuan yiyi renshi liu xianbin xingshi 
panjueshu], 17 May 11. See the Commission's Political Prisoner Database 
for more information about Liu Xianbin's case.
    \49\ Chinese Human Rights Defenders, ``Wuhan Rights Defender Li Tie 
Arrested on Suspicion of `Subverting State Power' Crime'' [Wuhan 
weiquan renshi litie bei yi shexian ``dianfu guojia zhengquan zui'' 
daibu], 17 November 10.
    \50\ Chinese Human Rights Defenders, ``After Being Missing for 12 
Days, Elections Expert Yao Lifa Free'' [Xuanju zhuanjia yao lifa 
shizong 12 tianhou huode ziyou], 30 October 10. This instance was 
reportedly related to authorities' perception that Yao was trying to 
organize a celebration of Liu Xiaobo's Nobel Peace Prize. Chinese Human 
Rights Defenders, ``Special Alert: Elections Expert Yao Lifa Once Again 
Kidnapped, Taken Away'' [Tebie guanzhu: xuanju zhuanjia yao lifa zaici 
bei bangjia dao waidi], reprinted in Boxun, 19 November 10. This 
instance was reportedly to impede his investigation of a case in which 
a petitioner was allegedly killed by an official. Chinese Human Rights 
Defenders, ``Elections Expert Yao Lifa Abused and Beaten During Soft 
Detention Period'' [Xuanju zhuanjia yao lifa bei ruanjin qijian shoudao 
ruma ouda], 13 December 10. This instance was reportedly to stop him 
from meeting Qin Yongmin, a democracy advocate. Human Rights in China, 
``Rights Lawyer Missing More Than 48 Hours; Former Local People's 
Congress Deputy Detained Seven Days,'' 18 February 11. This instance 
was reportedly to prevent him from training independent candidates for 
local elections. ``Police Question Foreigners in Seventh Jasmine Wave, 
Ai Weiwei and Assistant Prevented from Leaving the Country and Summoned 
by the Police'' [Di qibo molihua jingfang pancha waijiren ai weiwei ji 
zhushou bei jin chujing ji chuanhuan], Radio Free Asia, 3 April 11. 
This instance reportedly was related to the ``Jasmine Revolution'' 
rallies. Chinese Human Rights Defenders, ``As June 4th Approaches, 
Strict Control and Suppression Intensifies (Continuation)'' [Liusi 
jiangling, quanguo yankong daya shengji (xu)], 3 June 11. In February, 
authorities placed Yao under 24-hour observation, which intensified as 
the anniversary of the violent suppression of the 1989 Tiananmen 
protests approached in early June. ``Elections Expert Yao Lifa's 
Movements Restricted After Receiving a Call From the US Embassy'' 
[Xuanju zhuanjia yao lifa jie meiguo shiguan dianhua hou bei xianzhi 
renshen ziyou], 12 June 11; ``Scholar Held Amid Election Bid,'' Radio 
Free Asia, 21 June 11. Yao Lifa disappeared again after receiving calls 
from the U.S. Embassy and a reporter. Chinese Human Rights Defenders, 
``Yao Lifa Missing for Twenty Days, Home Searched Twice in One Day'' 
[Yao lifa shizong 20 tian shi, jiazhong yitian nei bei chachao 
liangci], 7 July 11; Chinese Human Rights Defenders, ``China Human 
Rights Briefing August 3-9, 2011,'' 9 August 11.
    \51\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
August 3-9, 2011,'' 9 August 11; ``Scholar Held Amid Election Bid,'' 
Radio Free Asia, 21 June 11.
    \52\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25; UN Human Rights Committee, 
General Comment No. 25: The Right To Participate in Public Affairs, 
Voting Rights and the Right of Equal Access to Public Service, CCPR/C/
21/Rev.1/Add.7, 7 December 96. Under General Comment 25 to the ICCPR, 
this language requires that: ``Where citizens participate in the 
conduct of public affairs through freely chosen representatives, it is 
implicit in article 25 that those representatives do in fact exercise 
governmental power and that they are accountable through the electoral 
process for their exercise of that power'' (Item 7); ``The right to 
vote at elections and referenda must be established by law and may be 
subject only to reasonable restrictions . . . [p]arty membership should 
not be a condition of eligibility to vote, nor a ground of 
disqualification'' (Item 10); ``Freedom of expression, assembly and 
association are essential conditions for the effective exercise of the 
right to vote and must be fully protected . . .'' (Item 12); ``The 
right of persons to stand for election should not be limited 
unreasonably by requiring candidates to be members of parties or of 
specific parties . . .'' (Item 17); An ``independent electoral 
authority should be established to supervise the electoral process and 
to ensure that it is conducted fairly, impartially and in accordance 
with established laws which are compatible with the Covenant . . . .'' 
(Item 20).
    \53\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76. China has signed, but has not yet 
ratified, the ICCPR. In the 2009-2010 National Human Rights Action Plan 
issued by the Chinese government in April 2009, officials stated that 
the ICCPR was one of the ``fundamental principles'' on which the plan 
was framed, and that the government ``will continue legislative, 
judicial and administrative reforms to make domestic laws better linked 
with this Covenant, and prepare the ground for approval of the ICCPR.'' 
State Council Information Office, National Human Rights Action Plan of 
China (2009-2010), reprinted in Xinhua, 13 April 09, Introduction, sec. 
V(1).
    \54\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A(III) of 10 December 48, art. 21. 
``Everyone has the right to take part in the government of his country, 
directly or through freely chosen representatives . . . . The will of 
the people shall be the basis of the authority of government, this will 
shall be expressed in periodic and genuine elections which shall be by 
universal and equal suffrage and shall be held by secret vote or by 
equivalent free voting procedures.''
    \55\ ``How To Look at New Trends in Rural Grassroots Elections'' 
[Ruhe kandai nongcun jiceng xuanju de xin chaoshi], Beijing Daily, 
reprinted in Seeking Truth, 27 September 10; Xu Dongmei, Research on 
Chinese Communist Party Intra-Party Democracy [Zhongguo gongchandang 
dangnei minzhu yanjiu], (Beijing: Party Construction Reading Materials 
Press, 2004), 7.
    \56\ Deng Xiaoping, ``Report on the Revision of the Constitution of 
the Communist Party of China,'' People's Daily, 16 September 56. 
According to Deng, ``The measures taken for the development of inner-
Party democracy are not meant to weaken necessary centralization in the 
Party, but to supply it with a powerful and vigorous base.'' 
Constitution of the Communist Party of China, as amended 21 October 07. 
According to the Party Constitution, ``Democratic centralism is a 
combination of centralism on the basis of democracy and democracy under 
centralized guidance. It is the fundamental organizational principle of 
the Party and is also the mass line applied in the Party's political 
activities. The Party must fully expand intra-Party democracy, 
safeguard the democratic rights of its members, and give play to the 
initiative and creativity of Party organizations at all levels as well 
as its members.'' Xu Dongmei, Research on Chinese Communist Party 
Intra-Party Democracy [Zhongguo gongchandang dangnei minzhu yanjiu], 
(Beijing: Party Construction Reading Materials Press, 2004), 3. 
Development of inner-Party democracy was all but abandoned during the 
Cultural Revolution (1966 to 1976), but was revived after 1978 when the 
concept of ``collective leadership'' once again became a guiding 
principle of the Party.
    \57\ State Council Information Office, White Paper on China's 
Peaceful Development (English), reprinted in Xinhua (Open Source 
Center, 6 September 11), issued 6 September 11, sec. III; State Council 
Information Office, White Paper on China's Peaceful Development 
(Chinese), reprinted in China Net, 6 September 11, sec. III. A 
subsequent article in Xinhua notes Chinese authorities' resolve to 
never permit ``external forces to interfere in China's internal 
affairs.'' ``China Will Never Allow External Interference, Says White 
Paper,'' Xinhua, 6 September 11. See also ``Editorial: Political System 
Included in China's `Core Interests' '' [Shelun: zhengzhi zhidu jinru 
zhongguo ``kexin liyichuan''], Global Times, 7 September 11.
    \58\ ``Editorial: Political System Included in China's `Core 
Interests' '' [Shelun: zhengzhi zhidu jinru zhongguo ``kexin 
liyichuan''], Global Times, 7 September 11.
    \59\ Full Text of Communique of the Fifth Plenum of the 17th CPC 
Central Committee, reprinted in Xinhua, 18 October 10.
    \60\ National People's Congress, Outline of the Economic and Social 
Development 12th Five-Year Plan of the People's Republic of China 
[Zhonghua renmin gongheguo guomin jingji he shehui fazhan di shier ge 
wunian guihua gangyao], issued 14 March 11, chap. 54. It states that 
China will ``strengthen democratic systems, enrich democratic forms, 
broaden democratic channels, implement democratic elections according 
to law; promote democratic policies, democratic management, and 
democratic supervision; protect people's right to know, right to 
participate, and right to supervise.''
    \61\ An Baijie, ``Premier Wen Calls for Major Political Reform,'' 
Global Times, 23 August 10. Premier Wen Jiabao reportedly made a 
statement in August 2010 declaring that ``[w]ithout the political 
reform, China may lose what it has already achieved through economic 
restructuring and the targets of its modernization drive might not be 
reached.''
    \62\ Gary Huang, ``Editorial Aims To Silence Calls for Political 
Reform: Western-Style Democracy Rejected,'' South China Morning Post, 
28 October 10.
    \63\ Shi Jiangtao, ``Beijing Slams Door on Political Reform,'' 
South China Morning Post, 11 March 11; `` `Zheng Qingyuan' Says 
Political Reform Is To `Strengthen' Party Leadership,'' People's Daily, 
26 October 10 (Open Source Center, 26 October 10).
    \64\ Wang Yuting, ``Wu Bangguo: Do Not Apply Mechanically Certain 
Western Legal Systems'' [Wu bangguo: bu taoyong xifang moxie guojia 
falu tixi], Eastday, 10 March 11; ``China Vows No Western-Style 
Political Reforms,'' Associated Press, reprinted in Washington Post, 9 
March 11. He also stated China would not carry out formal 
privatization.
    \65\ `` `Zheng Qingyuan' Says Political Reform Is To `Strengthen' 
Party Leadership,'' People's Daily, 26 October 10 (Open Source Center, 
26 October 10).
    \66\ What ``Democracy'' Means in China After Thirty Years of 
Reform, Staff Roundtable of the Congressional-Executive Commission on 
China, 22 May 09, Testimony of Melanie Manion, Professor of Public 
Affairs and Political Science, University of Wisconsin-Madison.
    \67\ National People's Congress, ``Delegates' Law Revision (Draft) 
Articles and Draft Explanation'' [Daibiaofa xiuzheng'an (cao'an) 
tiaowen ji cao'an shuoming], 28 August 10; Standing Committee of the 
National People's Congress, Decisions Regarding Revising Delegates Law 
of the National People's Congress and Various Levels of Local People's 
Congresses of the People's Republic of China, issued 28 October 10.
    \68\ Ibid.
    \69\ What ``Democracy'' Means in China After Thirty Years of 
Reform, Staff Roundtable of the Congressional-Executive Commission on 
China, 22 May 09, Testimony of Melanie Manion, Professor of Public 
Affairs and Political Science, University of Wisconsin-Madison. 
According to Manion, one development is that, despite official voter 
turnout figures of 90 percent, survey evidence indicates that ``very 
high proportions of ordinary Chinese know little or nothing about local 
congress candidates on election day, didn't vote in the most recent 
congress election, and can recall nothing their congress representative 
have done in the past term.''
    \70\ ``New Faces Should Go Back to Reality,'' Global Times, 31 May 
11; ``Editorial: Independent Candidates Should Revert From Micro Blogs 
Back to Reality,'' Global Times, 30 May 11; Zhu Shanshan, ``Grass-roots 
Candidates Rally Online,'' Global Times, 30 May 11.
    \71\ Peter Foster, ``Chinese Activists Harness Twitter To Campaign 
in Elections,'' Telegraph, 19 June 11.
    \72\ Chinese Human Rights Defenders, ``Jiangxi Independent 
Candidate Liu Ping Released After Four-Day Illegal Detention'' [Jiangxi 
duli houxuanren liu ping bei feifa guanya 4 tian hou houshi], 17 May 
11; Chinese Human Rights Defenders, ``Jiangxi Independent Candidate Liu 
Ping and Others Lose Contact With Outside World'' [Jiangxi duli 
houxuanren liu ping dengren yu waijie shiqu lianxi], 12 May 11; ``The 
True Story of a Local Female Independent Election Candidate in Xinyu, 
China,'' China Elections Blog, 20 May 11. Police told Liu, who 
reportedly had over 30,000 followers on her microblog, that she was not 
qualified to run because she traveled to Beijing to petition about a 
land issue and because some of her nominators were not eligible. Prior 
to this, police officials reportedly interrupted Liu's public speeches, 
accused her of being in league with ``hostile foreign political 
forces,'' and confiscated fliers and numerous items from her home. 
Chinese Human Rights Defenders, ``Jiangxi Independent Candidate Liu 
Ping Released After Four-Day Illegal Detention'' [Jiangxi duli 
houxuanren liu ping bei feifa guanya 4 tian hou houshi], 17 May 1. 
Officials called her in for questioning for ``disrupting public 
order.''
    \73\ Chinese Human Rights Defenders, ``Xinyu City, Jiangxi, 
Independent Candidates Wei Zhongping and Others Regain Their Freedom,'' 
20 May 11.
    \74\ Chinese Human Rights Defenders, ``Chinese Civic Elections 
Monitor Du Quanbing Kidnapped by Police'' [Zhongguo minjian xuanju 
guanchayuan du quanbin bei jingfang bangjia], 30 April 11.
    \75\ ``Independent Poll Candidates Harassed,'' South China Morning 
Post, 23 June 11. Authorities warned Li Sihua, of Jiangxi province, 
that he may face charges of ``sabotaging elections,'' accusing him of 
falsifying signatures on his nomination form. Xie Runliang, of Jiangsu 
province, pulled out of a local election in May one day after police 
called him in for a ``chat.'' A ``mysterious department'' allegedly 
pressured a company to withhold a tennis sponsorship for the son of 
candidate Li Chengpeng.
    \76\ ``New Faces Should Go Back to Reality,'' Global Times, 31 May 
11; ``Editorial: Independent Candidates Should Revert From Micro Blogs 
Back to Reality,'' Global Times, 30 May 11.
    \77\ Lin Wei and Chen Anyu, ``Longhua District in Haikou 
Effectively Bans Anomalies Involved in Village-Level Election 
Canvassing'' [Longhuachu cunji huanjie shunli tuijin], 23 July 10; Chen 
Anning and Bai Bin, ``Treating and Sending Gifts To Win Village Cadre 
Election'' [Wei jingxuan cun ganbu qingke songli], Hainan Daily, 12 
August 10. This article discusses election canvassing bribery in one 
district.
    \78\ ``Party Committee Twists Guangdong Village Committee 
Elections, New Shandong Village Chief Stabbed 20 Times'' [Guangdong 
cunwei huanjie dangwei caopan shandong cunzhang xin shangren bei kan 20 
dao], Radio Free Asia, 18 April 11.
    \79\ Chen Anning and Bai Bin, ``Treating and Sending Gifts To Win 
Village Cadre Election'' [Wei jingxuan cun ganbu qingke songli], Hainan 
Daily, 12 August 10; ``Questions and Answers by Ministry of Civil 
Affairs Deputy Minister Jiang Li on Deepening Implementation of the 
Organic Law of the Villagers' Committees'' [Minzhengbu fubuzhang Jiang 
Li jiu shenru guanche cunweihui zuzhifa dawen], China Net, 3 November 
10.
    \80\ Chen Anning and Bai Bin, ``Treating and Sending Gifts To Win 
Village Cadre Election'' [Wei jingxuan cun ganbu qingke songli], Hainan 
Daily, 12 August 10; Zhao Lei, ``Bribery Being Bred in Grassroots 
Elections,'' China Daily, 22 July 10.
    \81\ Yan Faming, Chinese Human Rights Defenders, ``Fangshan Village 
Election Ballot Box Snatched 8 Villagers Detained'' [Fangshan cunmin 
xuanju quan piaoxiang bei qiang 8 cunmin bei zhua], reprinted in Boxun, 
17 August 10; Paul Mooney, ``Village Seethes Over `Stolen' Election,'' 
South China Morning Post, reprinted in Web site of Paul Mooney, 29 
August 10.
    \82\ Yan Faming, Chinese Human Rights Defenders, ``Fangshan Village 
Election Ballot Box Snatched 8 Villagers Detained'' [Fangshan cunmin 
xuanju quan piaoxiang bei qiang 8 cunmin bei zhua], reprinted in Boxun, 
17 August 10. Those detained include Qiu Lina, Zhao Yun, Ma Zhizheng, 
Zhao Zhenghai, and Zhao Daqing. Paul Mooney, ``Village Seethes Over 
`Stolen' Election,'' South China Morning Post, reprinted in Web site of 
Paul Mooney, 29 August 10. ``Four More Detained in the Beijing Suburban 
Village Raoyuefu Election Scandal, 13 Arrested Including the Election 
Committee Director'' [Jingjiao raoyuefu xuanjumen zai zhua siren 
xuanweihui zhuren deng shisanren beizhua], Civil Rights and Livelihood, 
24 August 10. Officials later detained four other villagers including 
Liu Jinfu, a former village leader and director of the village election 
commission, on charges not specified in news reports.
    \83\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhifa], issued 4 November 98, amended and 
effective 28 October 10.
    \84\ ``Questions and Answers by Ministry of Civil Affairs Deputy 
Minister Jiang Li on Deepening Implementation of the Organic Law of the 
Villagers' Committees'' [Minzhengbu fubuzhang Jiangli jiu shenru 
guanche cunweihui zuzhifa dawen], China Net, 3 November 10.
    \85\ PRC Organic Law of the Villagers' Committees [Zhonghua renmin 
gongheguo cunmin weiyuanhui zuzhifa], issued 4 November 98, amended and 
effective 28 October 10, art. 32.
    \86\ ``Closely Watching the `Executive Power' of 7,000,000 
Government Officials'' [Dingjin 700 wan cunguan de ``xingzhengquan''], 
Xinhua, 7 December 10. For example, in Henan province, supervisory-
related organizations reportedly are mechanisms to supervise the 
exercise of official power, prevent corruption, and according to one 
official, have ``become a buffer safeguarding social stability in rural 
areas.'' Li Bo, ``Yijun County Sets Up Villager Supervisory Committees 
in Every Village'' [Yijun sheli cunmin jiandu weiyuanhui cujin nongcun 
hexie], Shaanxi Daily, 12 August 10. One village in Shaanxi province 
reported that after the village established the supervisory committee, 
petitioning cases decreased by 40 percent. ``Guo Yongping at 
Guanzhongwu City First District Open Village Affairs, Democratic 
Management, and Democratic Supervision Work Symposium Requires 
Deepening Open Village Affairs and Democracy for Tangible Advances in 
Managing `Difficult Villages' '' [Guo yongping zai guanzhongwushi yiqu 
cunwu gongkai minzhu guanli minzhu jiandu gongzuo zuotanhuishang yaoqiu 
shenhua cunwu gongkai he minzhu queshi tuijin ``nandiancun'' zhili], 
Shaanxi Daily, 27 July 10.
    \87\ ``Questions and Answers by Ministry of Civil Affairs Deputy 
Minister Jiang Li on Deepening Implementation of the Organic Law of the 
Villagers' Committees'' [Minzhengbu fubuzhang Jiangli jiu shenru 
guanche cunweihui zuzhifa dawen], China Net, 3 November 10.
    \88\ ``Panlong District: `Three Types of Committees' Jointly 
Oversee Management of Community Affairs'' [Panlongqu: ``sanwei'' 
xieshou guifan shequ shiwu guanli], Yunnan Daily, 5 July 10.
    \89\ Qian Qilu, ``To Hammer Out a Base, Promote Grassroots 
Democratic Political Construction in Village Pastoral Areas'' [Hanshi 
jichu tuijin nongcun muqu jiceng minzhu zhengzhi jianshe], Inner 
Mongolia Daily, 13 August 10. According to this news story, the 
``villager party branch is to exercise the power of conducting the 
decision-making process, the villager representative conference is to 
exercise the power to vote to approve the decision, the villager 
committee is to exercise the power to execute the decision, and the 
villager supervisory committee is to exercise the power of supervising 
the implementation of the decision.'' ``Promote Innovations in the 
Construction of Village Grassroots Party Organization--Briefing on 
Construction of Village Grassroots Organizations' `Three-Three System' 
High-Level Forum'' [Tuaijin nongcun jiceng dang zuzhi jianshe tizhi 
chuangxin--``nongcun jiceng zuzhi jianshe `sansanzhi' gaozeng luntan'' 
suyao], People's Daily, 20 October 10. In another village, the Party 
branch reportedly ``organizes a meeting to discuss major village 
issues'' and the villager representative assembly ``makes decisions 
happen,'' while the ``supervisory committee'' ``directs.''
    \90\ The 2010 revision contains an entire section on the ``villager 
representative assemblies,'' while the 1998 version only mentions the 
body once. PRC Organic Law of the Villagers' Committees [Zhonghua 
renmin gongheguo cunmin weiyuanhui zuzhifa], issued 4 November 98, 
amended and effective 28 October 10, sec. 4. PRC Organic Law of the 
Villagers' Committees [Zhonghua renmin gongheguo cunmin weiyuanhui 
zuzhifa], issued and effective 4 November 98, art. 21.
    \91\ ``Qinghai Province Establishes Village (Resident) Committee 
Election Observer System'' [Wosheng jianli cun (ju) min weiyuanhui 
xuanju guanchayuan zhidu], Qinghai News Net, 1 February 11. According 
to this article, provincial, autonomous prefecture, and county election 
leading agencies chose Party members, people's congress, and people's 
political consultative conference delegates, experts, scholars, and 
retired Party and government cadres, among others, with ``definite 
political qualities and knowledge of village/residents committee self-
governance and law'' to observe elections. Guangdong Province People's 
Congress Standing Committee, Guangdong Province Village Committee 
Election Measure [Guangdong sheng cunmin weiyuanhui xuanju banfa], 
issued 1 December 10. Hubei Province People's Congress Standing 
Committee, Hubei Province Village Committee Election Measures [Hubei 
sheng cunmin weiyuanhui xuanju banfa], issued 26 May 11.
    \92\ Wang Zhiyong and Sun Chunyan, ``Promote the Healthy 
Development of Democracy'' [Cujin minzhu zhengzhi jiankang fazhan], 
Jilin Daily, 17 March 10; ``For the 306 Villages of Xiji County `Two 
Committee' Elections, the Overall Quality of the Candidates Improves'' 
[Xiji 306 ge cun ``liangwei'' shunli huanjie dangxuanzhe zhengti suzhi 
tigao], Ningxia Daily, summarized in Open Source Center, 22 December 
10; Zhang Zhongbao, ``Village-Level Organization Elections Complete, 
All Achieved `One Shoulder To Carry' [Responsibilities of] Secretary 
and Leader, Five Village Committees in Qiongshan Held Successful `Open 
Direct Nomination' [Elections]'' [Wancheng cunji zuzhi huanjie xuanju, 
quanmian shixian shuji, zhuren ``yijantiao'' qiongshan 5 cunweihui 
``gongkai zhixuan'' chenggong], Hainan Daily, 26 September 10; Ji 
Chuanpai, ``Researching the `Two Committees' Village Elections and the 
Work of Party Leaders'' [Yanjiu cun ``liangwei'' huanjie xuanju he 
dangzheng lingdao ganbu wenze gongzuo], Beijing Daily, 9 December 10; 
Wu Zongyi and Han Xijiang, ``Grassroots Democracy Will Become Deeper if 
Citizens Have More Rights To Speak'' [Jiceng minzhu jiangxiang zongshen 
tuijin minzhong you gengduo huayuquan], Dazhong Net, 6 December 10. See 
the Commission's 2006 Annual Report for more information regarding the 
trend of recentralizing Party and government authority, which appears 
to be based on a September 2004 Party ``Decision on Strengthening the 
Party's Ruling Capacity.'' CECC, 2006 Annual Report, 20 September 06, 
Section III--Institutions of Democratic Governance and Legislative 
Reform, 124-31.
    \93\ Zhang Zhongbao, ``Village-Level Organization Elections 
Complete, All Achieved `One Shoulder To Carry' [Responsibilities of] 
Secretary and Leader, Five Village Committees in Qiongshan Held 
Successful `Open Direct Nomination' [Elections]'' [Wancheng cunji zuzhi 
huanjie xuanju, quanmian shixian shuji, zhuren ``yijantiao'' qiongshan 
5 cunweihui ``gongkai zhixuan'' chenggong], Hainan Daily, 26 September 
10.
    \94\ Huang Yong et al., ``Rudong County Accepts Applications From 
Whole County for Positions of Village Party Branch Secretaries'' 
[Rudong mianxiang quanxian gongkai xuanbo cun zhishu], China Jiangsu 
Net, 17 July 10. In Rudong county, Nantong municipality, Jiangsu 
province, to improve the professional skill level of leaders, county 
authorities allowed almost 20 percent (40 out of 235) of the county's 
villages to choose their Party branch secretaries from among candidates 
anywhere in the county, not just in the village where the election was 
being held.
    \95\ ``Dafang's Open Nomination System for Cadres Increases the 
Village's Vigor'' [Dafang gongkai xuanba cunji ganbu zeng huoli], 
Guizhou Daily, 28 December 10. One county in Guizhou province raised 
salaries for village heads and deputy heads to attract candidates with 
better qualifications.
    \96\ Zhang Xinyu, ``Gongliu Village Establishes Innovative 
Organization Combining `Three Officials in One System' '' [Gongliu 
chuangxin ``sanguan yiti'' cunji zuzhi jianshe], Yunnan Daily, 4 May 
10; Lian Xiaofang, ``Research To Intensify the Work of Open and 
Democratic Supervision of Village Affairs'' [Yanjiu shenhua cunwu 
gongkai he minzhu guanli deng gongzuo], Ningxia Daily, 30 December 10. 
To reduce the reported ``dishonest ethos'' among officials in so-called 
``difficult villages,'' Ningxia Hui Autonomous Region officials plan to 
use ``skilled and moral university students'' as village officials and 
appoint officials from outside the borders of villages.
    \97\ Zhang Xinyu, ``Gongliu Village Establishes Innovative 
Organization Combining `Three Officials in One System' '' [Gongliu 
chuangxin ``sanguan yiti'' cunji zuzhi jianshe], Yunnan Daily, 4 May 
10. One county in the Xinjiang Uyghur Autonomous Region combined using 
local village officials, college-graduate officials, and ``extra-
payroll'' officials in local organizations to resolve problems of 
governance.
    \98\ Mao Guanghui, ``Party Members First Discuss Major Issues in 
the Village'' [Cunli dashi dangyuan xianyi], Zhejiang Daily, 18 March 
10. Party officials described in this article developed a ``Party-
Member Preliminary Consultation System'' for Party members without a 
post. Guo Limin, ``Yutai Creates Village-Level Affairs Scientific 
Policy Making Platform'' [Yutai dazao cunji shiwu kexue jueci pingtai], 
Dazhong Daily, 6 August 10. According to this article, authorities 
reportedly established a ``senator'' affiliate system. The village 
Party committees in all 392 villages reportedly appointed ``senators'' 
from among ``old'' Party and government cadres and businessmen or 
workers who now work outside the village. These ``senators'' reportedly 
not only make suggestions, help with work, and even provide financing 
for a variety of projects, they also have assisted in smoothing out 
interactions between Hui and Han citizens, improved ``harmonious 
relations,'' and resolved hundreds of disputes.
    \99\ ``For the 306 Villages of Xiji County `Two Committee' 
Elections, the Overall Quality of the Candidates Improves'' [Xiji 306 
ge cun ``liangwei'' shunli huanjie dangxuanzhe zhengti suzhi tigao], 
Ningxia Daily, summarized in Open Source Center, 22 December 10; Zhang 
Xuefei, ``In Choosing Well the ``Lead Goose'' Villagers Go Straight to 
the Lead'' [Xuanhao ``lingtouya'' cunmin you bentou], Yunnan Daily, 2 
September 10; Zhang Xinyu, ``Gongliu Village Establishes Innovative 
Organization Combining `Three Officials in One System' '' [Gongliu 
chuangxin ``sanguan yiti'' cunji zuzhi jianshe], Yunnan Daily, 4 May 
10.
    \100\ Yang Yueqing, ``Provincial Conference on Deepening Open 
Village Affairs and Democratic Management Opens'' [Quansheng shenhu 
cunwu gongkai he minzhu guanli gongzuo xianchang hui zhaokai], Shaanxi 
Daily, 2 November 10. Shaanxi province reportedly had 314 ``difficult 
villages'' and 2,900 ``weak villages.'' One hundred and fifty-six 
villages now reportedly meet ``management standards.''
    \101\ The list in the text contains representative types of 
``difficult villages'' as defined by authorities in a variety of 
locations. The sources below provide more details regarding the types 
of ``difficult villages'' found in a variety of locations. Lian 
Xiaofang, ``Research To Intensify the Work of Open and Democratic 
Supervision of Village Affairs'' [Yanjiu shenhua cunwu gongkai he 
minzhu guanli deng gongzuo], Ningxia Daily, 30 December 10. In the 
Ningxia Hui Autonomous Region, ``difficult villages'' include those 
villages with ``relatively backward economic development,'' where 
``citizen aspirations and demands have not met with a response'' and 
where ``contradictions have accumulated and citizens' complaints are 
relatively large.'' Hui Ji, Zhejiang Normal University Village Research 
Center, ``Research Report on Guizhou Province Open Government Affairs 
and Democratic Management `Difficult Villages' Governance Work'' [Dui 
guizhousheng cunwu gongkai he minzhu guanli ``nandiancun'' zhili 
gongzuo de diaoyan baogao], 11 December 09. In Guizhou province, the 
category included villages that have not had successful village 
elections, had long-term problems with tensions between villagers and 
leaders, had longstanding issues with citizens taking grievances to 
higher authorities, or had problems with transparency of village 
affairs, among others. He Linping, ``Huizhou `Four-Democracy Working 
Method' To Realize `Villager Management' of Village Affairs'' [Huizhou 
``si minzhu gongzuofa'' shixian cunli de shiqing ``cunmin'guan''], 
People's Daily, 4 August 10. In a village in Guangdong province, the 
relationship between officials and villagers became ``complicated,'' 
and there was a high number of citizen complaints because ``a few 
village cadres had the final say over everything'' and ``villagers had 
no knowledge of the things they should know about, much less have the 
right to participate.'' The village was known as one where there were 
lots of complaints to higher levels, one that was ``ruled by men,'' and 
one that was poor and underdeveloped.
    \102\ See, e.g., Jiang Qiu, ``Perfecting the Systems of Open 
Village Affairs and Democratic Management To Promote Social Harmony and 
Stability in Rural Areas'' [Wanshan cunwu gongkai minzhu guanli zhidu, 
cujin nongcun shehui hexie wending], Guangxi Daily, 27 January 11; 
Ministry of Civil Affairs, 2010 National Civil Affairs Work Report 
(Summary of Contents) [2010 nian quanguo minzheng gongzuo baogao 
(neirong tiyao)], reprinted in Hebei Province Department of Civil 
Affairs, 28 December 10. Following are some news articles illustrating 
the various programs to resolve problems in villages. Lian Xiaofang, 
``Research To Intensify the Work of Open and Democratic Supervision of 
Village Affairs'' [Yanjiu shenhua cunwu gongkai he minzhu guanli deng 
gongzuo], Ningxia Daily, 30 December 10; Zhang Xuefei et al., ``Carry 
Out Duties as Promised, Let Real Achievements Speak, Malang County 
Introduces `Four Double' Commitment System to Break Bottlenecks in 
Supervision of Village Cadres'' [An chengnuo luzhi yong shiji shuohua - 
malongxian tuixing ``si shuang'' mubiao chengnuozhi pojie cunganbu 
jianguan nan pingtou], Yunnan Daily, 22 July 10; He Linping, ``Huizhou 
`Four-Democracy Working Method' To Realize `Villager Management' of 
Village Affairs'' [Huizhou ``si minzhu gongzuofa'' shixian cunli de 
shiqing ``cunmin guan''], People's Daily, 4 August 10.
    \103\ Zhou Qianjin, ``Prevent the Minority From Calling the Shots 
in Village Affairs'' [Cunli de shi fangzhi xiaoshuren shuole suan], 
Sichuan Daily, 18 March 10; ``Li Yuanchao: It Is Necessary To Develop 
and Perfect Party Leadership Over Mechanisms of Village-Level 
Autonomy'' [Li Yuanchao: yao fazhan he wanshan dang lingdao de cunji 
minzhu zizhi jizhi], Chinese Communist Party Information Net, 27 August 
2009; ``Liaoning Provincial Departments Strengthen Construction of 
Village Grassroots Organizations'' [Liaoning sheng bushu jiaqiang 
nongcun jiceng zuzhi jianshe], Dongbei News Net, 15 October 10.
    \104\ ``Questions and Answers by Ministry of Civil Affairs Deputy 
Minister Jiang Li on Deepening Implementation of the Organic Law of the 
Villagers' Committees'' [Minzhengbu fubuzhang jiang li jiu shenru 
guanche cunweihui zuzhifa dawen], China Net, 3 November 10.
    \105\ He Xuefeng, `` `Villagers Managing Expenditures, Financial 
Affairs Are Square'' [Kaizhi cunmin dangjia caiwu yiben qingzhang], 
Anhui Daily, 9 August 10; ``Questions and Answers by Ministry of Civil 
Affairs Deputy Minister Jiang Li on Deepening Implementation of the 
Organic Law of the Villagers' Committees'' [Minzhengbu fubuzhang jiang 
li jiu shenru guanche cunweihui zuzhifa dawen], China Net, 3 November 
10.
    \106\ Yu Qin, ``Villagers Need To Show Respect for `Transparent 
Account Books' '' [``Luozhang,'' xu cunmin maizhang], Zhejiang Daily, 
25 March 10.
    \107\ Xu Jian, ``Village Affairs, Under the Sunshine Moving Towards 
Transparency'' [Cunwu, zai yangguangxia zouxiang touming], Anhui Daily 
News, 1 September 10.
    \108\ The World and China Institute, Chinese Democratization Index 
2.0 [Zhongguo Minzhuhua Zhibiao Yanjiu Baogao 2009], (Beijing: The 
World and China Institute, 2011), 26.
    \109\ ``China's Top Legislature To Step Up Oversight Work Through 
Special Inquires,'' Xinhua, 10 March 11.
    \110\ State Council, Opinion Regarding Strengthening Construction 
of a Government That Rules by Law [Guanyu jiaqiang fazhi zhengfu 
jianshe de yijian], 8 November 10, sec. 1(1).
    \111\ Ibid.
    \112\ ``Reining in Coercive Power,'' Beijing Review, 4 August 11. 
PRC Law on Administrative Coercion [Zhonghua renmin gongheguo xingzheng 
qiangzhi fa], issued 30 June 11, effective 1 January 12.
    \113\ ``Six Highlights of the Draft Amendments to the 
Administrative Reconsideration Law'' [Xingzheng fuyifa xiuding ni 
shixian mingaoguan an liu da tupo], Legal Education Net, 20 July 11; 
``State Council Legislative Affairs Office: Appropriately Expand the 
Scope of Acceptance of Administrative Reconsideration Cases'' 
[Guowuyuan fazhiban: shidu kuoda xingzheng fuyi shouan fanwei], Legal 
Education Net, 17 July 11.
    \114\ PRC State Compensation Law [Zhonghua renmin gongheguo guojia 
peichangfa], issued 12 May 94, amended 29 April 10, effective 1 
December 10, arts. 7, 35; ``New Compensation Law Brings More 
Fairness,'' Global Times, 2 December 10.
    \115\ Zhang Xiangdong and Zheng Yi, ``NDRC To Revise System for 
Evaluating Performance of Local Officials,'' Economic Observer, 28 
March 11. The National Development and Reform Commission reportedly 
plans to divide regions into four categories to take differences into 
consideration: ``areas optimal for development,'' ``areas for key 
development,'' ``areas where development is restricted,'' and areas 
where ``development is prohibited.''
    \116\ Carl F. Minzner, ``Xinfang: An Alternative to Formal Chinese 
Legal Institutions,'' Stanford Journal of International Law, Vol. 42 
(2006), 154-55.
    \117\ Pan Hongqi, ``Need To Avoid Negative Effects of Including 
Stability Preservation in Officials' Performance Evaluations'' [Yi 
``weiwen'' kaohe guanyuan zhengji xu bimian fumian xiaoying], Beijing 
Youth Daily, 16 October 10. The author of this article argues that it 
would be better to evaluate the ``process'' of stability preservation 
rather than evaluating just the results of stability preservation.
    \118\ Ningyuan County People's Government, Detailed Rules and 
Regulations for Assessing Comprehensive Order and Stability Maintenance 
Marks in Villages and Towns [Du xiangzhen zongzhi weiwen kaohe pingfen 
xize], last visited 25 May 11 (estimated date 2009). For more 
information about the incentives for local officials to suppress 
petitioners, see Carl F. Minzner, ``Xinfang: An Alternative to Formal 
Chinese Legal Institutions,'' Stanford Journal of International Law, 
Vol. 42 (2006), 154.
    \119\ ``The Most Idiotic Villager Rules Ever'': Petitioners Must 
Get Permission To Take Their Complaints to Higher Levels, Offenders 
Grain Rations Deducted'' [``Shishang zuiniu cunmin shouze'': shangfang 
xu jing xuke weizhe kou kouliang qian], Worker's Daily, reprinted in 
Xinhua, 9 December 10. In Xiaobanqiao village, Jiaojiang district, 
Taizhou city, Zhejiang province, local officials reportedly issued 
``villager behavioral guidelines'' (cunmin shouze) that included the 
following rule: ``Anyone who visits an administration office at a 
higher level to lodge complaints without a justifiable reason and 
without the permission of his respective village Party branch and 
villager committee is liable to be punished by having his grain 
subsidies withheld for a period ranging from one to 10 years.'' 
Worker's Daily reported that the villagers said a ``grain subsidy'' is 
a form of cash compensation paid to villagers on a regular basis by 
officials for rent or lease payments for land used by businesses. 
Worker's Daily reported that ``legal experts'' advised village cadres 
that the ``guidelines'' were in violation of state laws, but did not 
specify which laws.
    \120\ ``Wen Jiabao: The Party's Largest Danger Is Corruption'' [Wen 
jiabao: zhizheng dang de zuida weixian shi fubai], China Review News, 
27 August 10.
    \121\ ``Graft Remains Top Public Concern Prior to Annual 
Parliamentary Session: Survey,'' Xinhua, 24 February 11.
    \122\ ``2010 Discipline Inspection and Supervision Agencies Case 
Investigation and Management Work Situation Press Conference'' 
[Zhongjiwei jianchabu zhaokai 2010 nian chaban anjian gongzuo qingkuang 
xinwen tongqihui], Xinhua, 6 January 11.
    \123\ ``Supreme People's Procuratorate Work Report March 11, 2011, 
at the 4th Plenum of the 11th National People's Congress'' [Zuigao 
renmin jianchayuan gongzuo baogao, 2011 nian sanyue shiyi ri zai di 
shiyi jie quanguo renmin daibiao dahui di xici huiyishang], People's 
Daily, 20 March 11.
    \124\ See ``Anti-Corruption Policies and Laws,'' People's Daily, 18 
August 11, for a list of recent anti-corruption regulatory instruments.
    \125\ State Council Information Office, ``White Paper on China's 
Efforts To Combat Corruption and Build a Clean Government,'' reprinted 
in PRC Central People's Government, 29 December 10.
    \126\ Central Committee of the Communist Party of China General 
Office, State Council General Office, Provisions on Economic 
Responsibility Audits for Chief Leading Cadres of the Party and the 
Government and Executives of State-Owned Enterprises [Dangzheng zhuyao 
lingdao ganbu he guoyouqiye lingdaoren yuan jingji zeren shenji 
guiding], issued 08 December 10.
    \127\ Party Central Committee and State Council, Provisions on 
Implementation of the Responsibility System for Construction of an 
Honest Party and a Clean Government [Guanyu shixing dangfeng lianzheng 
jianshe zerenzhi de guiding], issued 15 December 10.
    \128\ National People's Congress, ``PRC Criminal Law Amendment 
(8)'' [Zhonghua renmin gongheguo xingfa xiuzhengan (8)], 25 February 
11, art. 164; ``China Amends Criminal Law To Cover Foreign Bribery, 
Bribery of Non-PRC Government Officials Criminalized,'' E-Alert from 
Covington & Burling LLP, 1 March 11.
    \129\ ``China Is Promoting Anti-Bribery Law, but Enforcement 
Details Are Sparse,'' China Trade Extra, 9 August 11.
    \130\ ``Central Discipline Inspection: `41 Prohibitions' 
Standardize Township, Village-Level Grassroots Cadre Behavior,'' 
Xinhua, 15 July 11. Provisions on Rural Village Grassroots Officials' 
Honest Performance of Duties (Trial Implementation) [Nongcun jiceng 
ganbu lianjie luxing zhize ruogan guiding (shixing)], issued 14 July 
11, arts. 8(1), 1(5).
    \131\ ``Tip-Off Websites Launched To Curb Corruption,'' Xinhua, 
reprinted in China Daily, 9 February 11.
    \132\ Decision of the Standing Committee of the National People's 
Congress Regarding the Changes to the Law of the People's Republic of 
China on Administrative Supervision'' [Quanguo renmin daibiao dahui 
changwu weiyuanhui guanyu xiugai ``zhonghua renmin gongheguo xingzheng 
jianchafa'' de jueding], issued 25 June 10, arts. 3, 6.
    \133\ Zhao Yang, ``Supreme People's Procuratorate: More Than 70 
Percent of the Cases of Work-Related Offenses Originate From Citizen 
Reports'' [Zuigaojian: qicheng yishang zhiwu fanzui anjian yuanyu 
qunzhong jubao], Legal Daily, 21 June 10.
    \134\ Du Meng, ``70 Percent of Whistleblowers Subject to 
Retribution Trend Toward Concealed Methods, Difficult To Establish 
Scope'' [70% jubaozhe zaoyu daji baofu shouduan riqu yingbi nanyu 
jieding], Legal Daily, 17 June 10.
    \135\ Human Rights in China, ``Anti-Corruption Journalist Who 
Served 4 Year Sentence To Serve Eight More Years'' [Fuxing 4 nian de 
fanfu jizhe bei caiding zai fuxing 8 nian], 28 July 11.
    \136\ Ibid.
    \137\ ``Graft-Busting Site Blocked,'' Radio Free Asia, 11 January 
11.
    \138\ Chris Buckley, ``China Confess-a-Kickback Web Sites Draw 
Inspiration From India,'' Reuters, 13 June 11.
    \139\ ``China's Illegal Anti-Corruption Websites Face Closure,'' 
China Times News Group, 18 June 11; ``Anonymous Websites To Report 
Bribery Prove Wildly Popular in China Until the Censors Arrive,'' 
Associated Press, reprinted in Washington Post, 22 June 11.
    \140\ ``China's Illegal Anti-Corruption Websites Face Closure,'' 
China Times News Group, 18 June 11.
    \141\ ``Anonymous Websites To Report Bribery Prove Wildly Popular 
in China Until the Censors Arrive,'' Associated Press, reprinted in 
Washington Post, 22 June 11.
    \142\ ``Internet Users Set Up Site To Report Bribery,'' South China 
Morning Post, 14 June 11. An administrator of the site 
``woxinghuiliao'' said that hackers had attacked the Web site.
    \143\ US-China Business Council, "PRC Transparency Tracking," 
updated April 2011, 1.
    \144\ Ibid.
    \145\ Ibid.
    \146\ U.S. Department of Treasury, "Third Meeting of the U.S.-China 
Strategic & Economic Dialogue Joint U.S.-China Economic Track Fact 
Sheet," 10 May 11.
    \147\ State Council, Opinion Regarding Strengthening Construction 
of a Government That Rules by Law [Guanyu jiaqiang fazhi zhengfu 
jianshe de yijian], issued 8 November 10, chap. 17.
    \148\ Central Committee of the Chinese Communist Party General 
Office, Opinion Regarding Implementation of Open Party Affairs by 
Grassroots-Level Party Organizations [Guanyu dang de jiceng zuzhi 
shixing dangwu gongkai de yijian], issued 8 October 10; Xu Jian, 
``Village Affairs, Under the Sunshine Moving Towards Transparency'' 
[Cunwu, zai yangguangxia zouxiang touming], Anhui Daily News, 1 
September 10; ``Questions and Answers by Ministry of Civil Affairs 
Deputy Minister Jiang Li on Deepening Implementation of the Organic Law 
of the Villagers' Committees'' [Minzhengbu fubuzhang jiang li jiu 
shenru guanche cunweihui zuzhifa dawen], China Net, 3 November 10.
    \149\ Supreme People's Court, Provisions Regarding Several Issues 
in Trying Open Government Information Administrative Cases, issued 13 
December 10, arts. 1-2. The provisions clarify which government 
organization can be sued under certain circumstances if more than one 
is involved in an open government information case (art. 4). It also 
stipulates that the defendant in a case must explain why the 
information request was denied (art. 5). In cases involving state 
secrets, commercial secrets, or personal privacy issues, the court 
shall determine if the information falls within the scope of 
information that should be disclosed (art. 8). It also stipulates 
situations under which the court will make a determination regarding 
the reasons given by the defendant for not providing the information 
requested (art. 12). Zhao Yinan, ``Chinese Gain Right To Sue Govt for 
Public Records,'' China Daily, 16 August 11.
    \150\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11.
    \151\ Sharon LaFraniere, ``Media Blackout in China After Wreck,'' 
New York Times, 31 July 11.
    \152\ Central Committee of the Chinese Communist Party General 
Office, State Council General Office, Opinion Regarding Deepening Open 
Government Affairs and Strengthening Government Services [Guanyu 
shenhua zhengwu gongkai jiaqiang zhengwu fuwu de yijian], issued 2 
August 11, item 7. See also ``Analysis of the `Opinion Regarding 
Deepening Open Government Affairs and Strengthening Government 
Services' '' [Jiedu ``guanyu shenhua zhengwu gongkai jiaqiang zhengwu 
fuwu de yijian''], Xinhua, reprinted in PRC Central People's 
Government, 3 August 11; David Bandurski, China Media Project, ``The 
CCP Pushes for Openness, Again,'' 3 August 11. In addition, the Opinion 
urges officials to ``make innovations in information disclosure 
methods,'' ``to move ahead with openness in administrative decision-
making,'' ``to move forward with open and transparent operation of 
administrative authority,'' ``to expand openness in administrative 
examination and approval processes,'' ``to deepen implementation of 
Open Government Information Regulations,'' ``to make an effort to 
deepen open government affairs at the grassroots level,'' and ``to 
strengthen openness of administrative agency internal affairs.''
    \153\ Peking University, Center for Public Participation Studies 
and Support, ``Some of the Open Government Information Annual Reports 
Are Just a Formality'' [Bufen zhengfu xinxi gongkai nianbao zou 
xingshi], 20 May 11; Beijing University Center for Public Participation 
Studies and Support, ``Summary of the 2009 Annual Report on China's 
Administrative Transparency,'' translated by the China Law Center, Yale 
Law School, 28 September 10. The 2009 annual report assesses the 
administrative transparency of 43 agencies of the State Council, 30 
provinces, and 97 administrative units based on five indicators: 
information disclosure on request, disclosure on own initiative, 
institution building, system building, and supervision and remedy. The 
report determined that, on average, provinces received higher scores 
than the prefectures or cities. Further, the south-central China region 
scored the highest on average, suggesting that the level of economic 
development is not ``strictly proportional'' to the level of 
information disclosure.
    \154\ State Council, Opinion Regarding Strengthening Construction 
of a Government That Rules by Law [Guanyu jiaqiang fazhi zhengfu 
jianshe de yijian], issued 8 November 10, chap. 17. It specifically 
stipulates some of the categories within a budget that should be made 
transparent.
    \155\ ``Reluctant Transparency,'' Economic Observer, 26 July 11.
    \156\ Chen Yannan, ``Finance Ministry: 88 Central Government 
Departments Have Already Published 2011 Departmental Budgets'' 
[Caizhengbu: yiyou 88 jia zhongyang bumen gongkai 2011 nian bumen 
yusuan], Administrative Transparency Watch Net, 24 May 11.
    \157\ ``News on Three Public Expenses Made Public, a Good Beginning 
Needs a Good End'' [Sangong xiaofei xinxi gongkai hao de kaitou hai 
xuyao yige hao jieguo], Huasheng Online, 14 June 11; The ``three public 
expenses'' are expenses for cars and transportation, travel overseas, 
and public relations. ``Premier Wen Jiabao Convenes State Council 
Standing Committee Meeting'' [Wen jiabao zhuchi zhaokai guowuyuan 
changwu huiyi], Xinhua, 6 July 11. The Standing Committee especially 
called for the release of more detailed information related to the 
``three public expenses'' and other matters of concern to citizens.
    \158\ ``Central Authorities' Budget Is Made Open to the Public for 
the First Time'' [Zhongyang bumen yusuan shouci xiang shehui gongkai], 
Southern Weekend, 1 March 11; Chen Yannan, ``Finance Ministry: 88 
Central Government Departments Have Already Published 2011 Departmental 
Budgets'' [Caizhengbu: yiyou 88 jia zhongyang bumen gongkai 2011 nian 
bumen yusuan], Administrative Transparency Watch Net, 24 May 11.
    \159\ ``Governmental Financial Budgets: How Far Till Open and 
Transparent'' [Zhengfu caizheng yusuan: li gongkai touming haiyou 
duoyuan], Zhengzhou Evening News, reprinted in Xinhua, 12 April 11.
    \160\ Central Committee of the Chinese Communist Party General 
Office, Opinion Regarding Implementation of Open Party Affairs by 
Grassroots-Level Party Organizations [Guanyu dang de jiceng zuzhi 
shixing dangwu gongkai de yijian], issued 8 October 10.
    \161\ Zhou Xian, ``New Beijing Measures Hold Party Leaders 
Accountable,'' Beijing Daily, 22 March 11.
    \162\ ``Chinese Communist Party Comprehensively Promotes Open Party 
Affairs, Welcomes the 90th Birthday of Party Establishment'' [Zhonggong 
quanmian tuijin dangwu gongkai yingjie jiandang 90 huadan], China News 
Service, reprinted in Democracy and Law Times, 30 December 10; 
``Nationally 31 Provinces, Municipalities, Autonomous Regions, Party 
Committees, Organizations, and Departments Establish New Spokesperson 
Systems'' [Quanguo 31 ge sheng qu shi dangwei zuzhi bumen jianli xinwen 
fayanren zhidu], Xinhua, 30 June 10.
    \163\ National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11.
    \164\ State Council, Opinion Regarding Strengthening Construction 
of a Government That Rules by Law [Guanyu jiaqiang fazhi zhengfu 
jianshe de yijian], issued 8 November 10, chap. 4. Authorities plan to 
improve the public hearing process for major policy decisions, to 
expand the scope of hearings, and to standardize hearing procedures. 
The Opinion stipulates that hearing participants should have wide-
ranging representativeness, and their opinions should be used as 
important references in making decisions.
    \165\ Ibid.

                                 <all>

</pre></body></html>
